APPENDIX

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 1

PUBLISH

FILED
United States Court of Appeals
Tenth Circuit

UNITED STATES COURT OF APPEALS

March 18, 2020

FOR THE TENTH CIRCUIT
_________________________________

Christopher M. Wolpert
Clerk of Court

ELNA SEFCOVIC, LLC; WHITE RIVER
ROYALTIES, LLC; JUHAN, LP; ROY
ROYALTY, INC., individually and on
behalf of all others similarly situated,
Plaintiffs - Appellees,
v.
No. 19-1121
TEP ROCKY MOUNTAIN, LLC,
Defendant - Appellee.
-----------------------------CHARLES DEAN GONZALES;
SUSANNAH GONZALES; TED L.
VAUGHAN; HILDA VAUGHAN,
Objectors,
IVO LINDAUER; SIDNEY LINDAUER;
RUTH LINDAUER; DIAMOND
MINERALS,
Intervenors - Appellants,
and
THE LAW OFFICES OF GEORGE A.
BARTON, PC,
Movant - Appellee.
_________________________________

App. 1

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 2

Appeal from the United States District Court
for the District of Colorado
(D.C. No. 1:17-CV-01990-MEH)
_________________________________
David G. Seely, Fleeson, Gooing, Coulson & Kitch, L.L.C., Wichita, Kansas (Thomas D.
Kitch, Gregory J. Stucky, Ryan K. Meyer, Fleeson, Gooing, Coulson & Kitch, L.L.C.,
Wichita, Kansas; George Robert Miller, G. R. Miller, P.C., Durango, Colorado; and
Nathan A. Keever, Dufford, Waldeck, Milburn & Krohn, LLP, Grand Junction,
Colorado, with him on the briefs) for Intervenors−Appellants.
Christopher A. Chrisman, Holland & Hart LLP, Denver, Colorado (John F. Shepherd,
P.C., Holland & Hart LLP, Denver, Colorado; George A. Barton and Stacy A. Burrows,
Law Offices of George A. Barton, P.C., Overland Park, Kansas, with him on the brief),
for Appellees.
_________________________________
Before PHILLIPS, McHUGH, and MORITZ, Circuit Judges.
_________________________________
McHUGH, Circuit Judge.
_________________________________
This appeal arises out of a class action contract dispute. Appellants intervened in
the district court, seeking to dismiss the action for lack of federal subject matter
jurisdiction. Through two separate motions to dismiss, the briefing from both parties
confused the bounds of federal subject matter jurisdiction and conflated that concept with
the doctrines of abstention and comity, and with matters of venue and forum. Despite this
misdirection, the district court properly exercised jurisdiction and rebuffed appellants’
attempts to unwind nearly eighteen months of class action litigation. We affirm.
I.

BACKGROUND

Appellee-defendant TEP Rocky Mountain, LLC (“TEP”) operates wells that
produce natural gas in Colorado. These wells are subject to various leases or royalty
2

App. 2

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 3

agreements under which the owners of such instruments receive a share of profits
from the sale of natural gas.
Appellant-intervenors Ivo Lindauer, Sidney Lindauer, Ruther Lindauer, and
Diamond Minerals LLC (the “Lindauers” or the “Intervenors”), are the
representatives for a class of royalty owners who filed suit in 2006 in Colorado state
court (the “Lindauer class” or “Lindauer litigation”), alleging that TEP had
underpaid royalties on various leases and royalty agreements. In 2008, TEP and the
Lindauer class entered into a settlement agreement (the “Lindauer SA”) purporting to
“resolve all class claims relating to past calculation of royalt[ies]” and to “establish
certain rules to govern future royalty” payments. App. at 411.
The Lindauer SA declared that the state court would retain “continuing
jurisdiction” to enforce provisions of the settlement related to “the description of past
and future royalty methodologies.” App. at 427–28. The state court also issued a
judgment (the “stipulated judgment” or “consent decree”) certifying the class and
approving the Lindauer SA. This stipulated judgment concluded that the Lindauer
SA was “fair, adequate and reasonable” and stated that the parties “shall take any and
all steps necessary to implement the [Lindauer SA] according to its terms and the
terms of [the stipulated judgment].” App. at 447, 448. Finally, the stipulated
judgment included the following provision:
Without affecting the finality of this Final Judgment in any way, this
Court shall retain continuing jurisdiction of this action to address any issues
concerning implementation of the Settlement Agreement and enforcing this
Final Judgment.
3

App. 3

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 4

App. at 449.
Approximately eight years passed, seemingly free of incident. But on July 18,
2017, a subset of the Lindauer class (the “Sefcovic class”)1 initiated this action
against TEP in Colorado state court, alleging that TEP had calculated and paid
royalties in a manner inconsistent with the Lindauer SA and contrary to the
underlying royalty agreements. TEP removed the case to federal court on August 17,
2017. The parties engaged in discovery and ultimately reached a proposed class
settlement. One year later, on August 16, 2018, the district court2 issued an order
preliminarily approving the settlement and permitting the notice to be mailed to the
Sefcovic class members.
Less than a month later, on September 14, 2018, the Lindauers filed a “Motion
to Enforce Court Order and Settlement Agreement” in Garfield County District
Court—the Colorado state court that had entered the stipulated judgment in the
Lindauer litigation. That motion made no mention of the federal action alleging
breaches of the Lindauer SA—initiated fourteen months prior and having reached
preliminary approval of a class settlement agreement. The state court initially ordered
TEP to show cause why it should not be held in contempt for breaching the terms of

1

The Sefcovic class is composed of parties to the Lindauer SA with leases and
royalty agreements falling into four of thirteen categories created in the Lindauer
litigation.
2

The Sefcovic class and TEP consented to the Magistrate Judge presiding over
this matter. We therefore refer to the Magistrate Judge’s orders as those of the district
court.
4

App. 4

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 5

the Lindauer SA but subsequently stayed the proceedings to “await [the federal
district court’s] ruling on pending motions.” App. at 1039–40.
On September 28, 2018, the Lindauers filed a motion to intervene in the
federal district court proceeding. Before the district court ruled on the motion to
intervene, the Lindauers filed a motion to dismiss, arguing the court lacked subject
matter jurisdiction based on the stipulated judgment’s clause retaining “continuing
jurisdiction” in the state court. The district court then “dismissed [the action] without
prejudice based on [its] independent assessment of subject matter jurisdiction” and
largely because of the state court’s retention of jurisdiction over the Lindauer SA.
App. at 1052. It therefore dismissed the Lindauers’ motion to intervene as moot and
vacated the fairness hearing on the proposed Sefcovic SA. App. at 1052–53.
TEP filed a motion to reconsider, arguing the district court’s jurisdiction was
proper despite the state court’s retention of jurisdiction. The Lindauers filed a
renewed motion to intervene, which the district court granted, and a renewed motion
to dismiss, arguing again that the district court lacked subject matter jurisdiction
and/or should have abstained from presiding over the case under Younger or
Colorado River abstention.
The district court granted TEP’s motion to reconsider and reinstated the case
on January 23, 2019. In doing so, the district court clarified that in its original order
it believed “dismissal would be appropriate here under principles of comity and wise
judicial administration . . . akin to the doctrine set forth in Colorado River.” App. at
1084. The court explained that
5

App. 5

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 6

(1) courts are authorized to retain jurisdiction over settlement agreements,
and (2) when a court has done so, and that jurisdiction is explicitly (or
implicitly under the totality of circumstances) exclusive, then (3) the
doctrine of comity permits a court, even in the presence of subject matter
jurisdiction, to defer to the settlement court in cases requiring the
interpretation and enforcement of the settlement agreement.
App. at 1086 (footnote omitted). But because this doctrine is non-jurisdictional and
thus “not an absolute obligation,” the district court determined that dismissal was
inappropriate for a variety of reasons, including that Intervenors were aware of this
litigation but opted to intervene only after preliminary approval of the settlement
agreement. App. at 1086.
The district court subsequently approved the Sefcovic SA,3 and Intervenors
timely appealed the district court’s determination that it possessed subject matter
jurisdiction.
II.

DISCUSSION

In seeking dismissal of this action below, Intervenors relied primarily on two
similar provisions appearing in the Lindauer SA and the stipulated judgment adopted
by the state court. Those provisions declare that the state court retains “continuing
jurisdiction” to enforce the Lindauer SA and the stipulated judgment. Intervenors
argued below, and they maintain on appeal, that those provisions vest “exclusive
jurisdiction over the parties and subject matter” in the state court. Aplt. Br. at 17.

3

The district court approved the Sefcovic SA over the objections of several
class members. Those objections form the basis of a separate appeal (Case No.
19-1120) heard by the same panel and resolved by a separate Order and Judgment
issued concurrently with this Opinion.
6

App. 6

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 7

Because many of their arguments rest in whole or in part on Intervenors’ erroneous
assertion that the district court was without subject matter jurisdiction, we begin with
a discussion of subject matter jurisdiction. We then proceed to distinguish that
concept from doctrines of abstention and matters of venue and forum, and conclude
by applying these concepts to this appeal.
A.

Subject Matter Jurisdiction

“Subject matter jurisdiction defines the court’s authority to hear a given type
of case.” Carlsbad Tech., Inc. v. HIF Bio, Inc., 556 U.S. 635, 639 (2009) (quoting
United States v. Morton, 467 U.S. 822, 828 (1984)). “Only Congress may determine a
lower federal court’s subject-matter jurisdiction.” Kontrick v. Ryan, 540 U.S. 443,
452 (2004) (emphasis added) (citing U.S. Const. Art. III, § 1). Thus, the scope of a
federal court’s subject matter jurisdiction is governed exclusively by acts of
Congress.4 And when Congress grants subject matter jurisdiction, no other entity—
not the litigants and not the states—can divest a federal court of the same.5 See

4

Congress, in turn, is constrained in the types of matters it can authorize the
federal courts to adjudicate by Section 2 of Article III of the Constitution.
5

Nor can a state court achieve the same result by enjoining federal
proceedings. See Donovan v. City of Dallas, 377 U.S. 408, 412–13 (1964) (“While
Congress has seen fit to authorize courts of the United States to restrain state-court
proceedings in some special circumstances, it has in no way relaxed the old and wellestablished judicially declared rule that state courts are completely without power to
restrain federal-court proceedings in in personam actions . . . .” (footnotes omitted)).
One practical exception exists when parallel state and federal “suits are in rem, or
quasi in rem, so that the court, or its officer, has possession or must have control of
the property which is the subject of the litigation.” Princess Lida v. Thompson, 305
U.S. 456, 466 (1939). Because only one tribunal can exercise control over the subject
property, the rule, “applicable to both federal and state courts,” is that “the court first
7

App. 7

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 8

Marshall v. Marshall, 547 U.S. 293, 313 (2006) (“Jurisdiction is determined ‘by the
law of the court’s creation and cannot be defeated by the extraterritorial operation of
a [state] statute . . . , even though it created the right of action.’” (alterations in
original) (quoting Tenn. Coal, Iron, & R.R. Co. v. George, 233 U.S. 354, 360
(1914))); Ry. Co. v. Whitton’s Adm’r, 80 U.S. (13 Wall.) 270, 286 (1871)
(“Whenever a general rule as to property or personal rights . . . is established by State
legislation . . . the jurisdiction of the [federal] court in such a case is not subject to
State limitation.”); Odom v. Penske Truck Leasing Co., L.P., 893 F.3d 739, 742 (10th
Cir. 2018) (“Congress alone defines the lower federal courts’ subject-matter
jurisdiction.”).6

assuming jurisdiction over property may maintain and exercise that jurisdiction to the
exclusion of the other.” Id. Both this action and the Lindauer action were brought in
personam.
6

See also VanDesande v. United States, 673 F.3d 1342, 1350 (Fed. Cir. 2012)
(citing “the well-established rule that neither a court nor the parties has the power to
alter a federal court’s statutory grant of subject matter jurisdiction”); Begay v. KerrMcGee Corp., 682 F.2d 1311, 1315 (9th Cir. 1982) (“[S]tate law may not control or
limit the diversity jurisdiction of the federal courts. The district court’s diversity
jurisdiction is a creature of federal law under Article III and 28 U.S.C. § 1332(a).
Pursuant to the supremacy clause, [§] 1332(a) preempts any contrary state law.”);
Markham v. City of Newport News, 292 F.2d 711, 716 (4th Cir. 1961) (“[A] court, in
determining its own jurisdiction, must look to the constitution and laws of the
sovereignty which created it. The laws of a state cannot enlarge or restrict the
jurisdiction of the federal courts or those of any other state.”); McGarry v. Lentz, 13
F.2d 51, 52 (6th Cir. 1926) (“Obviously, no state Legislative can regulate, limit, or
control the jurisdiction of the federal courts, nor can the laws of any state preclude
resort to the federal courts, nor confer exclusive jurisdiction upon a designated state
court, in a class of cases of which the federal courts of equity have theretofore been
accustomed to assume jurisdiction.”).
8

App. 8

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 9

That many of Congress’s statutory grants of subject matter jurisdiction operate
to create concurrent jurisdiction between state and federal courts is of no
significance, at least so far as subject matter jurisdiction is concerned. Indeed, the
Supreme Court “has repeatedly held that ‘the pendency of an action in the state court
is no bar to proceedings concerning the same matter in the Federal court having
jurisdiction.’” Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280, 292
(2005) (quoting McClellan v. Carland, 217 U.S. 268, 282 (1910)); see also Donovan
v. City of Dallas, 377 U.S. 408, 412 (1964) (“[W]here the judgment sought is strictly
in personam, both the state court and the federal court, having concurrent
jurisdiction, may proceed with the litigation at least until judgment is obtained in one
of them which may be set up as res judicata in the other.” (quoting Princess Lida v.
Thompson, 305 U.S. 456, 466 (1939))).
B.

Abstention

Nevertheless, the Supreme Court has counseled that a district court may, and
sometimes must, abstain from hearing a matter that otherwise finds a statutory basis
for subject matter jurisdiction. See Exxon Mobil, 544 U.S. at 292 (“Comity or
abstention doctrines may, in various circumstances, permit or require the federal
court to stay or dismiss the federal action in favor of the state-court litigation.”). But
when cases present circumstances implicating these doctrines, no question is raised
as to the court’s subject matter jurisdiction.7 Rather, when a federal court may or

7

In its first order dismissing the case for lack of subject matter jurisdiction,
the district court indicated its belief that the Supreme Court and this court “routinely”
9

App. 9

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 10

must abstain from exercising its unquestioned subject matter jurisdiction over a
dispute, it does so pursuant to a power derived from the “historic discretion exercised
by federal courts ‘sitting in equity.’” Quackenbush v. Allstate Ins. Co., 517 U.S. 706,
718 (1996).8 But because of the “virtually unflagging obligation of the federal courts
to exercise the jurisdiction given them,” the Supreme Court has repeatedly cautioned
that “[a]bstention from the exercise of federal jurisdiction is the exception, not the

find that a district court “lacks” subject matter jurisdiction when Younger abstention
applies. App. at 1044. Although the mandatory nature of Younger abstention is
concededly confusing in this respect, we have taken care to clarify—in a case cited
by the district court—that “Younger is a doctrine of abstention [that] . . . differs from
a case in which the district court is barred at the outset from exercising its
jurisdiction.” D.A. Osguthorpe Family P’ship v. ASC Utah, Inc., 705 F.3d 1223, 1230
n.8 (10th Cir. 2013).
For the proposition that the Supreme Court uses jurisdiction interchangeably
with abstention, the district court also cited to Exxon Mobil Corp. v. Saudi Basic
Indus. Corp., 544 U.S. 280 (2005). But Exxon Mobil was not decided on abstention.
Rather, Exxon Mobil involved the Rooker-Feldman doctrine, a principle that gives
effect to the fact that Congress has authorized only the Supreme Court to exercise
appellate review of state court judgments. See Exxon Mobil, 544 U.S. at 291
(“Rooker and Feldman exhibit the limited circumstances in which this Court’s
appellate jurisdiction over state-court judgments, 28 U.S.C. § 1257, precludes a
United States district court from exercising subject-matter jurisdiction in an action it
would otherwise be empowered to adjudicate under a congressional grant of authority
. . . .”). By enacting 28 U.S.C. § 1257, Congress placed a limitation on the subject
matter jurisdiction of the lower federal courts to review state court judgments. Thus,
when a federal action presents Rooker-Feldman circumstances, a district court is in
fact without subject matter jurisdiction to adjudicate it.
8

Due to this equitable origin, a federal court has “the power to dismiss or
remand cases based on abstention principles only where the relief being sought is
equitable or otherwise discretionary.” Quackenbush v. Allstate Ins. Co., 517 U.S.
706, 731 (1996). In an action for money damages that otherwise implicates the
concerns underlying a particular abstention doctrine, a district court may do no more
than stay the federal litigation while it awaits the state court’s resolution of the state
proceeding. See id. at 730–31.
10

App. 10

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 11

rule.” Colo. River Water Conservation Dist. v. United States, 424 U.S. 800, 813, 817
(1976).
C.

Private Agreements Preselecting Particular Fora or Venue

Finally, when a case finds subject matter jurisdiction and further does not
implicate interests underlying the abstention doctrines, a federal district court may
yet be required to give effect to the parties’ prior agreement that any disputes
between them be litigated in a particular venue or forum. An agreement of this sort
has absolutely no bearing on a federal court’s subject matter jurisdiction. Rather,
when parties select in advance the exclusive venue and/or forum for the resolution of
future disputes, and one party timely seeks enforcement of that agreement, federal
courts give effect to these provisions through a transfer of venue (when the provision
points to a different federal forum) or dismissal without prejudice under the doctrine
of forum non conveniens (when the provision identifies a state or foreign forum).9
See Atl. Marine Const. Co., Inc. v. U.S. Dist. Court for W. Dist. of Tex., 571 U.S. 49,
59–60 (2013).

9

Appellees incorrectly suggest that the doctrine of forum non conveniens is
limited to circumstances involving foreign courts or law. In support, appellees rely
exclusively on cases that do not involve a purported forum selection clause. But
Intervenors invoke forum non conveniens as a mechanism to enforce what they
believe amounts to a forum selection clause—“the appropriate way to enforce a
forum-selection clause pointing to a state . . . forum.” See Atl. Marine Const. Co.,
Inc. v. U.S. Dist. Court for W. Dist. of Tex., 571 U.S. 49, 60 (2013). When used for
this purpose, the forum non conveniens analysis relied on by appellees is “adjust[ed]”
in significant respects, and the forum selection clause is “given controlling weight in
all but the most exceptional cases.” Id. at 63 (quoting Stewart Org., Inc. v. Ricoh
Corp., 487 U.S. 22, 33 (1988) (Kennedy, J., concurring)).
11

App. 11

Appellate Case: 19-1121

Document: 010110321497

D.

Date Filed: 03/18/2020

Page: 12

Application

It is beyond reasoned dispute that the district court possessed subject matter
jurisdiction in this case—Congress clearly authorized the district court to adjudicate
this matter when it enacted the Class Action Fairness Act, 28 U.S.C. § 1332(d).10
And, as the above principles dictate, the Colorado state court—no matter the
language in the stipulated judgment approving the Lindauer SA—could not divest the
federal district court of subject matter jurisdiction. Thus, contrary to the apparent
misperceptions of both parties, the state and federal courts enjoy concurrent
jurisdiction over this matter. See BNSF Ry. Co. v. Tyrrell, 137 S. Ct. 1549, 1557
(2017) (explaining that concurrent jurisdiction is a well-known term of art long
employed by Congress and the courts to refer to subject matter jurisdiction); id. at
1553 (distinguishing venue provision of Federal Employers’ Liability Act (FELA)
from jurisdiction provision, and holding that the state and federal courts have
concurrent jurisdiction over FELA claims).
Accordingly, the only inquiries remaining in this appeal are (1) whether the
district court, pursuant to a doctrine of abstention or comity, should have stayed or
dismissed this action in favor of the state court litigation, and (2) whether the district

10

Intervenors do not dispute that this case meets the requirements of
§ 1332(d). But for the first time at any stage of this litigation, Intervenors assert in
their reply brief that removal was untimely because TEP did not remove the Lindauer
litigation to federal court in 2006, implicitly suggesting that TEP’s failure to remove
the Lindauer litigation precludes their removal of this action. This argument is
waived, but even if it were not it would fail because this case and the Lindauer action
are separate and distinct, and TEP was not barred from removing this case because it
declined to remove Lindauer.
12

App. 12

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 13

court abused its discretion in denying Intervenors’ motion to dismiss based on forum
non conveniens. We consider each question in turn.
1. Younger Abstention
The Intervenors urged the district court to abstain pursuant to the doctrines
announced in Younger v. Harris, 401 U.S. 37 (1971), and Colorado River, 424 U.S.
800. On appeal, perhaps recognizing the broad discretion accorded a district court in
deciding whether to abstain under Colorado River, the Intervenors abandon any
reliance on that doctrine in favor of their argument that the district court was required
to abstain under Younger. “We review de novo the district court’s decision on
whether to abstain under Younger.” Planned Parenthood of Kan. v. Andersen, 882
F.3d 1205, 1221 (10th Cir. 2018).
Younger provides that a federal court must abstain from deciding a case
otherwise within the scope of its jurisdiction in “certain instances in which the
prospect of undue interference with state proceedings counsels against federal relief.”
Sprint Commc’ns, Inc. v. Jacobs, 571 U.S. 69, 72 (2013). It applies to three
categories of state cases: (1) “state criminal prosecutions,” (2) “civil enforcement
proceedings,” and (3) “civil proceedings involving certain orders that are uniquely in
furtherance of the state courts’ ability to perform their judicial functions.” Id. at 73
(quoting New Orleans Pub. Serv., Inc. v. Council of New Orleans, 491 U.S. 350,
367–68 (1989)). Only “exceptional” circumstances merit Younger abstention,
however, and in the ordinary case, the default rule applies: that “[T]he pendency of
an action in [a] state court is no bar to proceedings concerning the same matter in the
13

App. 13

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 14

Federal court having jurisdiction.” Id. (alterations in original) (quoting Colorado
River, 424 U.S. at 817).
Category one—state criminal prosecutions—clearly does not apply to the state
civil case. Nor does category two; the Supreme Court clarified in Sprint
Communications that Younger extends to civil enforcement proceedings that are
“akin to criminal prosecution.” Sprint Commc’ns, 571 U.S. at 79 (“Our decisions
applying Younger to instances of civil enforcement have generally concerned state
proceedings ‘akin to a criminal prosecution’ in ‘important respects.’ Such
enforcement actions are characteristically initiated to sanction the federal plaintiff,
i.e., the party challenging the state action, for some wrongful act.” (citations omitted)
(quoting Huffman v. Pursue, Ltd., 420 U.S. 592, 604 (1975))).
That leaves category three: “civil proceedings involving certain orders that are
uniquely in furtherance of the state courts’ ability to perform their judicial
functions.” Id. at 73. Before turning to the Intervenors’ arguments in support of
Younger abstention under this category, we first review cases exhibiting this class’s
paradigm characteristics. “The prototypical examples of situations falling within this
third category are Juidice v. Vail, 430 U.S. 327 (1977), and Pennzoil [Co. v. Texaco
Inc., 481 U.S. 1 (1987)].” Aaron v. O’Connor, 914 F.3d 1010, 1016 (6th Cir. 2019).
In Juidice, a state court entered a default judgment against Vail, who failed to
satisfy the judgment and later failed to appear at a hearing to “show cause why he
should not be punished for contempt.” 430 U.S. at 329. Juidice, a state court judge,
entered orders holding Vail in contempt and ordering his arrest. Id. at 330. Vail and a
14

App. 14

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 15

group of coplaintiffs also subject to state contempt proceedings brought suit in
federal district court “to enjoin . . . the use of the statutory contempt procedures
authorized by New York law and employed by [Juidice and other state court
judges].” Id. The federal district court “permanently enjoin[ed] the operation of
[those procedures].” Id. at 331.
The Supreme Court held that the federal district court should have abstained
under Younger based on the “State’s interest in the contempt process, through which
it vindicates the regular operation of its judicial system” and because “federal-court
interference with the State’s contempt process” would be “‘an offense . . . likely to be
every bit as great as it would be were this a criminal proceeding.’” Id. at 335, 336
(quoting Huffman, 420 U.S. at 604). “The contempt power lies at the core of the
administration of a State’s judicial system,” the Court explained, id. at 335, and
interference with this process would both disrupt “the legitimate activities of the
Stat[e]” and could be interpreted as “reflecting negatively upon the state courts’
ability to enforce constitutional principles,” id. at 336 (alteration in original) (first
quoting Younger, 401 U.S. at 44; then quoting Huffman, 420 U.S. at 604).
In Pennzoil, after receiving an adverse $11 billion judgment in Texas state
court, Texaco filed an action in federal district court “alleg[ing] that the Texas
proceedings violated rights secured to Texaco by the Constitution and various federal
statutes.” Pennzoil Co., 481 U.S. at 6. The district court determined Texaco had a
“clear probability of success” and accordingly issued a preliminary injunction barring
Pennzoil from attempting to collect its judgment through state court enforcement
15

App. 15

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 16

processes. Id. at 8. “The principal issue,” the Court explained, was “whether a federal
district court lawfully may enjoin a plaintiff” who prevailed in state trial court “from
executing the judgment in its favor.” Id. at 3.
The Supreme Court held that the reasoning of Juidice required the district
court to abstain under Younger. Id. at 13.
Both Juidice and this case involve challenges to the processes by which the
State compels compliance with the judgments of its courts. Not only would
federal injunctions in such cases interfere with the execution of state
judgments, but they would do so on grounds that challenge the very process
by which those judgments were obtained.
Id. at 13–14 (footnote omitted).
Thus, both Juidice and Pennzoil involved requests to directly or indirectly
thwart state court compliance processes. See Joseph A. ex rel. Corrine Wolfe v.
Ingram, 275 F.3d 1253, 1272 (10th Cir. 2002) (“Younger governs whenever the
requested relief would interfere with the state court’s ability to conduct proceedings,
regardless of whether the relief targets the conduct of a proceeding directly.”); see
also Zeeco, Inc. v. JPMorgan Chase Bank, Nat’l Ass’n, No. 17-CV-384-JED-FHM,
2017 WL 6539504, at *2 (N.D. Okla. Dec. 21, 2017) (unpublished) (“What Younger,
Juidice, and Pennzoil have in common is that they all involved plaintiffs filing
separate federal suits in an attempt to enjoin ongoing state proceedings.”).
Here, there is no such interference. After the district court preliminarily
approved the Sefcovic SA,11 Intervenors moved in state court for an order requiring

11

As the district court noted, counsel for the Intervenors admitted “that,
although he was aware of this lawsuit within months of its filing, he decided to
16

App. 16

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 17

TEP to “show cause why it should not be held in contempt of the [Lindauer SA].”
App. at 705. Intervenors argue that because this motion could eventually result in
“contempt proceedings under” Colorado law, the district court should have abstained
pursuant to the third Younger category. Aplt. Reply Br. at 21. In so arguing,
Intervenors suggest that the mere presence of contempt proceedings in state court
required the district court to abstain under Younger.
But Younger does not mechanically require abstention whenever a state court
conducts contempt proceedings in a related matter. Rather, as the above cases show,
the “exceptional circumstances” requiring abstention under Younger’s third category
are present only when the relief requested from the federal court would enjoin or
otherwise interfere with such proceedings. See Columbian Fin. Corp. v. Stork, 811
F.3d 390, 393 (10th Cir. 2016) (“Younger requires federal courts to refrain from
ruling when it could interfere with ongoing state proceedings.”); ReadyLink
Healthcare, Inc. v. State Comp. Ins. Fund, 754 F.3d 754, 759 (9th Cir. 2014) (stating

monitor what the outcome of the case would be, in order to determine what action
would be [in] his clients’ best interest.” App. at 1088. After preliminary approval of
the settlement agreement in this action, Intervenors first initiated contempt
proceedings in state court, omitting any reference to the federal litigation in their
motion for an order to show cause. In this regard, this case presents the opposite of
the paradigmatic Younger scenario in which a litigant requests injunctive relief from
a federal court to thwart the consequences of its loss in state court.
We hasten to add that TEP is not blameless with respect to litigation
gamesmanship. Upon removal, TEP did not apprise the federal district court that the
Lindauer SA was approved by a stipulated judgment that contained at least some
indication the state court contemplated a continuing role in the settlement’s
enforcement.
17

App. 17

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 18

Younger abstention is only appropriate if “the federal action would have the practical
effect of enjoining the state proceedings”).
To be sure, Juidice tells us that contempt proceedings are “uniquely in
furtherance of the state courts’ ability to perform their judicial functions.” See Sprint
Commc’ns, 571 U.S. at 78. But Intervenors have not articulated, and we cannot
discern, any argument that the relief requested from the district court—approval of
the class settlement agreement—operates to enjoin or in any way interfere with the
state court’s ability to pursue contempt proceedings against TEP. Indeed, when
pressed at oral argument, counsel for the Intervenors conceded that the “the federal
court d[id not do] anything to enjoin the state court from proceeding with [the
contempt] motion.” Oral Argument at 15:01–15:16. Nevertheless, counsel argued that
Younger abstention applied because the federal court “exercised jurisdiction over the
subject matter and entered an order that amended—effectively amended—the
Lindauer settlement agreement.” Id. Although this assertion may raise concerns
relevant to the district court’s permissive decision to defer to the state court’s
concurrent jurisdiction, it is insufficient to mandate Younger abstention. Stated
simply, the “exceptional circumstances” requiring a court to abstain from exercising
its subject matter jurisdiction are not present every time a federal court is asked to
approve a private settlement agreement that resolves uncertainty flowing from an
earlier settlement agreement resolving state court litigation. See Sprint Commc’ns,
571 U.S. at 78 (“[O]nly exceptional circumstances . . . justify a federal court’s refusal
to decide a case in deference to the States.” (first alteration in original) (quoting New
18

App. 18

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 19

Orleans Pub. Serv., Inc., 491 U.S. at 368)). Because Intervenors have not established
that the district court’s orders interfered with a civil proceeding “uniquely in
furtherance of the state courts’ ability to perform their judicial functions,” the district
court properly found that Younger abstention did not apply. See id.
2. Forum Non Conveniens
Finally, Intervenors suggest the district court should have dismissed this action
under the doctrine of forum non conveniens because the Lindauer SA and/or its
companion stipulated judgment embodied the parties’ agreement to litigate their
disputes exclusively in state court. We first review whether the Lindauer SA contains
an exclusive forum selection provision12 before analyzing the effect of similar
language in the state court’s stipulated judgment.
The Lindauer SA provides that the state court possesses “continuing
jurisdiction” to enforce provisions of the settlement related to “the description of past
and future royalty methodologies.” App. at 427–28. Under settled Colorado and
Tenth Circuit law,13 this language does not create a mandatory forum selection
clause.

12

We review the interpretation of a forum selection clause de novo, but review
for abuse of discretion a district court’s resolution of a motion to dismiss on forum
non conveniens grounds. Kelvion, Inc. v. PetroChina Can. Ltd., 918 F.3d 1088, 1092
(10th Cir. 2019).
13

Because the Lindauer SA contains a choice-of-law provision declaring that
Colorado law govern its interpretation, we apply Colorado law to interpret the forum
selection provision. See Yavuz v. 61 MM, Ltd., 465 F.3d 418, 430 (10th Cir. 2006)
(giving effect to a choice-of-law provision in a contract for the purpose of
interpreting its forum selection clause). But we cite to Tenth Circuit cases where
19

App. 19

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 20

We have stated the general rule in interpreting forum selection clauses as
follows:
where venue is specified [in a forum selection clause] with mandatory or
obligatory language, the clause will be enforced; where only jurisdiction is
specified [in a forum selection clause], the clause will generally not be
enforced unless there is some further language indicating the parties’ intent
to make venue exclusive.
K & V Sci. Co., Inc. v. Bayerische Motoren Werke Aktiengesellschaft, 314 F.3d 494,
499 (alterations in original) (quoting Paper Express, Ltd. v. Pfankuch Maschinen
GmbH, 972 F.2d 753, 757 (7th Cir. 1992)). Thus, our principal inquiry is whether the
parties intended venue in the state court to be permissive or mandatory. See
Vanderbeek v. Vernon Corp., 25 P.3d 1242, 1247 (Colo. App. 2000), aff’d, 50 P.3d
866 (Colo. 2002) (“Contract language mandating suit in a different forum requires
dismissal whereas language merely permitting suit in such forum does not.”); K & V
Sci. Co., 314 F.3d at 498 (“This court and others have frequently classified forum
selection clauses as either mandatory or permissive.” (internal quotation marks
omitted)).
To find indicia of exclusivity, Colorado courts do not require any specific
incantation. See Vanderbeek, 25 P.3d at 1248 (“No specific language is required for a
provision to be mandatory. The clause need only contain clear language showing that

relevant because “there are no material discrepancies between Colorado law” and
federal law with regard to the validity and interpretation of forum selection clauses.
Excell, Inc. v. Sterling Boiler & Mech., Inc., 106 F.3d 318, 320 (10th Cir. 1997); see
Vanderbeek v. Vernon Corp., 25 P.3d 1242, 1247 (Colo. App. 2000), aff’d, 50 P.3d
866 (Colo. 2002) (citing to both Tenth Circuit and Colorado case law).
20

App. 20

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 21

the appropriate forum consists of that which has been designated.”). For example, in
Vanderbeek, the court considered a forum selection clause stating, “The Partners
hereby expressly agree to submit any dispute or action arising between the Partners
. . . to the jurisdiction of the state or federal courts found within the State of
Delaware [or various other specified forums].” Id. at 1247. Although the clause did
not include the words “shall,” “exclusive,” or “only,” the court concluded that “the
language reflects an effort of all of the partners to agree to the most convenient,
reasonable, and mutually agreeable place for any lawsuit which may arise between or
among them.” Id. at 1247–48.
The putative forum selection clause in the Lindauer SA falls squarely outside
the general rule. Although the provision specifies that the state court have
“continuing jurisdiction” to enforce a portion of the Lindauer SA, it neither requires
that “all” actions be brought there, nor places any restriction on the parties’ ability to
bring suit elsewhere. See id. at 1248 (“[P]ermissive forum selection clauses authorize
suit in the designated forum, but do not prohibit litigation elsewhere.” (emphasis
added)). In short, the lack of any language suggesting exclusivity confirms that the
parties bargained for a permissive, but not mandatory, forum selection clause.
But Intervenors argue for a different result because they sought enforcement
not only of a forum selection provision in a private agreement, but also of a similar
provision in the state court’s judgment approving the Lindauer SA. That state court
judgment—which, the parties agree, amounts to a stipulated judgment or consent
decree—declares that “this Court shall retain continuing jurisdiction of this action to
21

App. 21

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 22

address any issues concerning implementation of the Settlement Agreement and
enforcing this Final Judgment.” App. at 449. Intervenors urge that the two provisions
be read in pari materia, apparently arguing that language insufficient to establish an
exclusive forum selection clause in a private agreement does precisely that when
adopted by a court as part of a consent decree. We disagree.
The Supreme Court has explained that “[c]onsent decrees and orders have
attributes both of contracts and of judicial decrees.” United States v. ITT Cont’l
Baking Co., 420 U.S. 223, 236 n.10 (1975). “Because of this dual character, consent
decrees are treated as contracts for some purposes but not for others.” Id. For
enforcement purposes, however, the Court has directed that “a consent decree or
order is to be construed . . . basically as a contract.” Id. at 238. And by asking the
district court to dismiss the action under forum non conveniens based on the consent
decree, Intervenors undeniably sought “enforcement” of the jurisdiction-retention
provision.
Our conclusion that the retention of jurisdiction provision be interpreted like
an ordinary contract is bolstered by the fact that the state court merely adopted a
proposed judgment jointly drafted by the parties and submitted alongside the
settlement agreement. Indeed, the Intervenors relied on this fact below in urging the
district court to find indicia of exclusivity and to hold the parties to their agreement:
The parties reinforced the mandatory nature of their agreement that the
Garfield County District Court would have jurisdiction over the Lindauer
Settlement Agreement by attaching to that agreement the proposed form of
judgment, in which the Garfield County District Court expressly retained
22

App. 22

Appellate Case: 19-1121

Document: 010110321497

Date Filed: 03/18/2020

Page: 23

jurisdiction. The court ultimately adopted that [proposed] form of judgment
and retained jurisdiction.
App. at 522 n.3 (record citations omitted). Thus, by the Intervenors’ own admission,
the parties bargained for and drafted both provisions. We therefore see no reason to
deviate from a contractual inquiry focusing on whether the parties intended that the
provision be permissive or mandatory. And this conclusion is dispositive because, as
with the provision in the Lindauer SA, the provision in the stipulated judgment
contains no indication that the parties intended to bind themselves to litigate
exclusively in the state court as required by Colorado law.
In summary, because neither the forum selection clause in the Lindauer SA nor
the related language in the stipulated judgment is mandatory, the district court did not
abuse its discretion in declining to dismiss this case under the doctrine of forum non
conveniens.
III.

CONCLUSION

For the reasons articulated, the district court properly determined that it
possessed subject matter jurisdiction over this action, correctly declined to abstain
under Younger, and rightly found “no indication that the parties contemplated [the
state court] to [be] the exclusive forum” in which to litigate their contractual
disputes. App. at 1089. The judgment is AFFIRMED.

23

App. 23

Case 1:17-cv-01990-MEH Document 98 Filed 11/09/18 USDC Colorado Page 1 of 17

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 17-cv-01990-MEH
ELNA SEFCOVIC, LLC,
JUHAN, LP, and
ROY ROYALTY, INC., individually and on behalf of all others similarly situated,
Plaintiffs/Counter Defendants,
v.
TEP ROCKY MOUNTAIN, LLC,
Defendant/Counterclaimant.

ORDER

Michael E. Hegarty, United States Magistrate Judge.
This case proceeded without incident for over fourteen months and is set for a final fairness
hearing on November 20, 2018. Recently, however, this Court’s subject matter jurisdiction was
challenged based on the interplay of two separate class actions: (1) a state court class action in
Garfield County District Court, Colorado, which was filed by Ivo Lindauer, Sidney and Ruth
Lindauer, and Diamond Minerals, LLC, individually and as Class Representatives (Case No. 2006
CV 317) (“the Lindauer class action”) in 2006; and (2) this federal court class action, which was
filed by a subclass of the state court class (“the Sefcovic class action”) in 2017. The plaintiffs in
both class actions seek to recover oil and gas royalties owed to them per the Settlement Agreement
reached in the Lindauer class action. The defendant in the state and federal actions is the same,
though its name has changed from Williams Production RMT Co. to TEP Rocky Mountain, LLC
(“TEP”).

1

App. 24

Case 1:17-cv-01990-MEH Document 98 Filed 11/09/18 USDC Colorado Page 2 of 17

Before the Court is a Motion to Dismiss on Jurisdictional Grounds [filed October 5, 2018;
ECF No. 67], which was filed by the Class Representatives in the Lindauer class action. Those
Class Representatives are non-parties here, so that motion was improvidently docketed.
Nevertheless, I consider the issue of this Court’s jurisdiction based on my “independent obligation
to address . . . subject matter jurisdiction.” City of Albuquerque v. Soto Enter. Inc., 864 F.3d 1089,
1093 (10th Cir. 2017) (advising that a district court “can dismiss actions sua sponte for a lack of
subject matter jurisdiction”).

The parties are aware that I am considering this threshold

jurisdictional issue. They have had an opportunity to address subject matter jurisdiction both in
briefing and in oral argument, and I have carefully considered their positions. Because I find
subject matter jurisdiction to be lacking based on abstention principles, I reluctantly dismiss this
case. Unfortunately, I cannot disregard the authority that dictates this result, even though I am
acutely aware of the time and resources the parties have expended to reach the proposed settlement
in this case.
BACKGROUND
I.

Factual Background
The flurry of recent briefing contains a detailed discussion of the origin of the Lindauer

and Sefcovic class actions and how each set of plaintiffs seeks to recover based on the Settlement
Agreement reached in the Lindauer class action.

Because there does not seem to be any

disagreement about the events preceding this lawsuit, I incorporate that background material here
in the interest of efficiency. See, e.g., TEP’s Resp. in Opp’n to Intervenors’ Mot. to Dismiss on
Jurisdictional Grounds (“TEP’s Resp.”) 2–5 & Ex. 1, 3, 4, 9, ECF No. 88; Pls.’ Resp. in Opp’n to
Proposed Intervenors’ Mot. to Dismiss on Jurisdictional Grounds 2, ECF No. 89 (incorporating
TEP’s factual background).

2

App. 25

Case 1:17-cv-01990-MEH Document 98 Filed 11/09/18 USDC Colorado Page 3 of 17

To summarize, the defendant in that case (who is also the defendant here) was accused of
unlawfully deducting expenses from royalty payments. The plaintiffs in the Sefcovic class action,
who were not the Class Representatives in state court, call themselves a “subclass” of the Lindauer
class and allege a breach of the Settlement Agreement in the Lindauer class action. The Sefcovic
class action has resulted in a new proposed class settlement. The opt-out date for the Sefcovic
class action was October 8, 2018, though the Class Representatives in the Lindauer class action
were granted an extension to mail a written election of exclusion to opt out, pending my ruling on
the Motion to Dismiss. See Order, ECF No. 86.
II.

Procedural History
On July 18, 2017, the plaintiffs in the Sefcovic class action filed their class action complaint

against now-TEP in the District Court for the City and County of Denver, Colorado. ECF No. 3.
TEP removed the case to this Court on August 17, 2017. ECF No. 1. The parties engaged in
extensive informal discovery and ultimately reached a proposed Class Settlement. See Order
¶¶ 4–6, ECF No. 61. On August 16, 2018, this Court issued an Order Preliminarily Approving the
Class Settlement. See generally id. The Court approved of the notice to be mailed to class
members and instructed class counsel to accomplish the mailing within seven days. Id.
On September 14, the Class Representatives in the Lindauer class action filed a Motion to
Enforce Court Order and Settlement Agreement Against TEP in Garfield County District Court.
See Mot. to Intervene, Ex. C, ECF No. 64-3. The state court issued an Order to Show Cause,
directing TEP to show cause why it should not be held in contempt and to explain “why it has not
breached the terms of the Settlement and has not failed to comply with the Judgment.” Id., Ex. D,
ECF No. 64-4. A phone hearing took place on October 23, 2018, and the state court stayed the

3

App. 26

Case 1:17-cv-01990-MEH Document 98 Filed 11/09/18 USDC Colorado Page 4 of 17

proceedings and set a status conference for January 4, 2019, to await this Court’s rulings on
pending motions.
On September 28, the Class Representatives in the Lindauer class action filed a Motion to
Intervene in this Court, seeking intervention as of right pursuant to Federal Rule of Civil Procedure
24(a) or, in the alternative, permissive intervention under Rule 24(b). ECF No. 64. They move to
intervene to “fulfill their ongoing obligation to protect the rights and interests of the Lindauer
Plaintiff Class.” Id. at 3. The Sefcovic plaintiffs and TEP responded to the Motion to Intervene
on October 17, see ECF Nos. 76, 77. The opposition briefs stated that the parties do not oppose
intervention to assert individual objections to final approval of the proposed class settlement
(assuming intervention is even necessary), but they object to intervention to assert objections on
behalf of other class members. See ECF Nos. 76, 77. The Lindauer Class Representatives filed
their reply on October 30. ECF No. 90. Before any ruling on the Motion to Intervene, the Lindauer
Class Representatives filed a Motion to Dismiss on jurisdictional grounds. ECF No. 67. The
Sefcovic plaintiffs and TEP responded on October 26, see ECF Nos. 88, 89, and the Lindauer Class
Representatives filed a reply on November 7, see ECF No. 97. In the interim, I held a Status
Conference on October 22 to discuss the status of the case, the class, and the proposed settlement,
as well as pending motions, briefing deadlines, and the propriety and necessity of intervention.
See ECF No. 82. All parties attended, as did the putative intervenors.
Meanwhile, Plaintiffs have filed an Unopposed Motion for Leave to File Their Second
Amended Class Action Complaint. ECF No. 87. And, with the fairness hearing looming, the
parties in the Sefcovic class action have filed a Joint Motion for Final Approval of Class Settlement.
ECF No. 92. In addition, Class Counsel for the Sefcovic plaintiffs has filed a Motion for an Award

4

App. 27

Case 1:17-cv-01990-MEH Document 98 Filed 11/09/18 USDC Colorado Page 5 of 17

of Attorneys’ Fees, Expenses, and an Incentive Award Payment to Class Representatives. ECF
No. 93.
Most recently, on November 2, several individuals (Charles and Susannah Gonzales and
Ted and Hilda Vaughan, collectively, “Objectors”) filed their Objections to Approval of Proposed
Sefcovic Class Settlement and Notice of Intent to Appear at Final Approval Hearing. ECF No. 96.
These Objectors claim that (1) the proposed settlement in this case sacrifices the interests of
Subclass I members; (2) the notice provided was inadequate under Federal Rule of Civil Procedure
23(b)(3); (3) the proposed settlement is not reasonable; (4) the Motion to Enforce in state court
is the superior method of enforcing the Settlement Agreement in the Lindauer class action; (5) the
release contained within the proposed settlement is overly broad; (6) the proposed settlement
improperly attempts to amend the Settlement Agreement in the Lindauer class action; and (7) the
requested attorneys’ fees are excessive. See id. Thus, the Lindauer Class Representatives are not
alone in opposing the proposed settlement here.
ANALYSIS
I consider the issue of this Court’s jurisdiction based on my “independent obligation to
address . . . subject matter jurisdiction.” City of Albuquerque v. Soto Enter. Inc., 864 F.3d 1089,
1093 (10th Cir. 2017) (advising that a district court “can dismiss actions sua sponte for a lack of
subject matter jurisdiction”). The parties have briefed this topic, see ECF Nos. 88, 89, and they
presented argument during a Conference held on October 22, 2018, see ECF No. 82.
Rule 12(b)(1) empowers a court to dismiss a complaint for “lack of subject-matter
jurisdiction.” Fed. R. Civ. P. 12(b)(1). A Rule 12(b)(1) dismissal is not a judgment on the merits
of a plaintiff’s case, but only a determination that the court lacks authority to adjudicate the matter.
See Pueblo of Jemez v. United States, 790 F.3d 1143, 1151 (10th Cir. 2015) (recognizing that

5

App. 28

Case 1:17-cv-01990-MEH Document 98 Filed 11/09/18 USDC Colorado Page 6 of 17

federal courts are courts of limited jurisdiction and may only exercise jurisdiction when
specifically authorized to do so). A court lacking jurisdiction “must dismiss the cause at any stage
of the proceeding in which it becomes apparent that jurisdiction is lacking.” Id. (quoting Full Life
Hospice, LLC v. Sebelius, 709 F.3d 1012, 1016 (10th Cir. 2013)). Any such dismissal is without
prejudice. See Brereton v. Bountiful City Corp., 434 F.3d 1213, 1216 (10th Cir. 2006). A Rule
12(b)(1) motion to dismiss must be determined from the factual allegations in the complaint,
without regard to mere conclusory allegations of jurisdiction. Smith v. Plati, 258 F.3d 1167, 1174
(10th Cir. 2001). The burden of establishing subject matter jurisdiction is on the party asserting
jurisdiction, Butler v. Kempthorne, 532 F.3d 1108, 1110 (10th Cir. 2008)—here, Plaintiffs.
The First Amended Class Action Complaint and Demand for Jury Trial (“Complaint”)
alleges, as its factual basis, that Defendant has “underpaid royalties owed [to Plaintiffs] under
numerous leases and overriding royalty agreements which are subject to certain future royalty
payment provision which are set forth in the class settlement agreement approved in 2008 by the
Garfield County [Colorado] District Court in Lindauer v. Williams Production RMT Co.” Compl.
¶ 7, ECF No. 43. The Complaint further alleges that “[s]ince July 1, 2011, the Plaintiffs and the
defined Subclasses were not properly paid royalties pursuant to their leases or overriding royalty
agreements . . . which are subject to the Lindauer Class Settlement Agreement.” Id. ¶ 8. The only
claims brought in this action are for breach of the Lindauer Settlement Agreement’s provision
involving royalty payments.
In the Lindauer case, Section 5 of the Settlement Agreement addressed the manner in which
the defendant was to calculate royalty payments. See Mot. to Dismiss, Ex. A, ¶ 5.1, ECF No.

6

App. 29

Case 1:17-cv-01990-MEH Document 98 Filed 11/09/18 USDC Colorado Page 7 of 17

67-1.1 That same Section 5 stated, “Settlement Class Members are entitled to rely on the
representations in this Section, as well as the description of past and future royalty methodologies
in Sections 2 and 4. The Court has continuing jurisdiction to enforce this paragraph.” Id. ¶ 5.2.
The state court’s judgment also contained the following statement about continuing jurisdiction:
“Without affecting the finality of this Final Judgment in any way, this Court shall retain continuing
jurisdiction of this action to address any issues concerning implementation of the Settlement
Agreement and enforcing this Final Judgment.” Id., Ex. B at 8, ¶ 4, ECF No. 67-2. Presently,
class counsel in the Lindauer case are pursuing relief in the state court to enforce the Settlement
Agreement in light of the allegations made in this federal lawsuit. See Pls.’ Resp. to Mot. to
Dismiss, Ex. 1, ECF No. 89-1 (Motion to Enforce Court Order and Settlement Agreement Against
TEP Rocky Mountain LLC, filed Sept. 14, 2018). The state court, on October 23, 2018, continued
its consideration of a motion for contempt until January 4, 2019, in anticipation that I will have
issued a decision on jurisdiction by that date. See TEP’s Resp. to Mot. to Dismiss, Ex. 4, ECF No.
88-4.
The issue before me is whether the state court retained exclusive jurisdiction over an action
alleging breach of the royalty payment provisions such that I should dismiss this case in deference
to that court. I start with the proposition that “Congress alone defines the lower federal courts’
subject matter jurisdiction.” Odom v. Penske Truck Leasing Co., L.P., 893 F.3d 739, 742 (10th
Cir. 2018). Neither a state court nor the parties can create or destroy federal subject matter

1

The Settlement Agreement is identified in the Complaint, see Compl. ¶ 7, and is referenced
throughout the Complaint. Even though the Agreement is not attached to the Complaint, it is
appropriate for me to consider it for Rule 12(b)(1) purposes. See Holt v. United States, 46 F.3d
1000, 1003 (10th Cir. 1995). The Motion to Dismiss only attached excerpts from the Agreement,
but a complete copy was attached to the Response to the Motion to Dismiss. See Pls.’ Resp. to
Mot. to Dismiss, Ex. 6, ECF No. 89-6.
7

App. 30

Case 1:17-cv-01990-MEH Document 98 Filed 11/09/18 USDC Colorado Page 8 of 17

jurisdiction. City of Albuquerque, 864 F.3d at 1093. The parties do not dispute that this Court has
subject matter jurisdiction under the Class Action Fairness Act, 28 U.S.C § 1332(d)(2), and venue
is proper in the District of Colorado.2 Thus, the remaining question is whether there is any
principle of abstention or comity that would require dismissal in deference to the state court.
First, did the state court retain “exclusive” jurisdiction? The United States Supreme Court,
in Kokkonen v. Guardian Life Insurance Co. of America, 511 U.S. 375 (1994), recognized that
when a federal court embodies a settlement agreement in its dismissal order or retains jurisdiction
over the settlement contract when the parties so agree, such originating federal court has federal
jurisdiction over any subsequent breach of settlement agreement action. Id. at 380–81. Absent
these elements, “enforcement of the settlement agreement is for state courts [i.e., in a separate
breach of contract action], unless there is some independent basis for federal jurisdiction.” Id. at
382. Importantly, the Court stated that “[e]nforcement of the settlement agreement . . . whether
through award of damages or decree of specific performance, is more than just a continuation of
the dismissed suit, and hence requires its own basis for jurisdiction.” Id. at 378.
Application of this decision to the current case supports the proposition that the Garfield
County District Court had the legal ability to retain jurisdiction over disputes arising under the
Settlement Agreement, but does not answer three questions: (1) Did the language used by the state
court and the parties in the Lindauer class action confer such authority?; and, if so, (2) is that

2

In finding that this Court does not have subject matter jurisdiction despite the Class Action
Fairness Act, I adopt the terminology used by the Supreme Court and the Tenth Circuit. Those
courts routinely explain that a court “lacks” subject matter jurisdiction (or is precluded from
exercising it) pursuant to the Younger abstention doctrine. See, e.g., Exxon Mobil Corp. v. Saudi
Basic Indus. Corp., 544 U.S. 280, 281–82 (2005); D.A. Osguthorpe Family P’ship v. ASC Utah,
Inc., 705 F.3d 1223, 1230–31 (10th Cir. 2013). Stated otherwise, it is not that subject matter
jurisdiction does not technically exist; rather, it would be improper for the Court to exercise it.
8

App. 31

Case 1:17-cv-01990-MEH Document 98 Filed 11/09/18 USDC Colorado Page 9 of 17

retained jurisdiction exclusive?; and, if so, (3) should I defer to the state court and dismiss this
action?
I could find no persuasive authority in the Tenth Circuit, and Plaintiffs do not address the
first two questions in their briefing. See ECF No. 89. In arguing that this Court has jurisdiction,
Defendant contends that K&V Scientific Co v. BMW, 314 F.3d 494 (10th Cir. 2002), is
“[c]ontrolling.” TEP’s Resp. at 1. That decision dealt with a forum selection clause (in that case,
the selected forum was Munich, Germany), which was contained in a confidentiality agreement.
See 314 F.3d at 496 (“Jurisdiction for all and any disputes arising out of or in connection with this
agreement is Munich. All and any disputes arising out of or in connection with this agreement are
subject to the laws of the Federal Republic of Germany.”). The Tenth Circuit applied the uniform
approach taken by other circuits, which it described as “sound.” Id. at 499–500. That is, when a
venue clause is specified in a forum selection clause “with mandatory or obligatory language,” it
will be enforced; “where only jurisdiction is specified,” it generally will not be enforced “unless
there is some further language indicating the parties’ intent to make venue exclusive.” K&V
Scientific Co., 314 F.3d at 499 (quoting Paper Express, Ltd. v. Pfankuch Maschinen GmbH, 972
F.2d 753, 757 (7th Cir. 1992)).
The context of K&V Scientific Co. was a motion to dismiss for improper venue. It dealt
with location only, designating jurisdiction as “Munich”; it did not address which court could or
would exercise jurisdiction. Nor did any of the scenarios outlined in that case to illustrate the
mandatory/permissive dichotomy match up with the one here. K&V Scientific Co. is thus
inapposite to the issue of whether the Garfield County District Court retained exclusive jurisdiction
over a breach of settlement agreement lawsuit.

9

App. 32

Case 1:17-cv-01990-MEH Document 98 Filed 11/09/18 USDC Colorado Page 10 of 17

Various federal court decisions support the proposition that when a state court retains
exclusive jurisdiction over a settlement agreement, any federal lawsuit within the scope of such
jurisdiction should be dismissed. See, e.g., Tomerlin v. Johns Hopkins Univ., Inc., 689 F. App’x
578, 578–79 (9th Cir. Apr. 24, 2017); Weaver v. Aegon USA, LLC, No. 4:14-cv-03436-RBH, 2015
WL 5691836, at *32 (D.S.C. Sept. 28, 2015); Bar Codes Talk, Inc. v. GS1, Inc., No. 8:10-cv-1462T-30MAP, 2010 WL 4510982, at *2 (M.D. Fla. Nov. 2, 2010). The converse is also true. In Battle
v. Liberty National Life Insurance Co., 877 F.2d 877, 880–83 (11th Cir. 1989), for instance, the
court upheld a federal district court’s injunction of state court proceedings “in aid of its
jurisdiction” where plaintiffs in the state court litigation had been class members in a prior federal
action that had settled. The court emphasized that the final judgment in the federal action was the
result of seven years of lengthy, complicated antitrust litigation, which included weeks of court
hearings and extensive discovery. Id. at 882.
Granted, the settlement agreements in these cases contained exclusivity language. But this
principle has been applied in cases like this one too. In Mercier v. Blankenship, 662 F. Supp. 2d
562 (S.D. W. Va. 2009), the court addressed a final judgment containing almost identical language
to the situation at bar: “Without affecting the finality of this Judgment in any way, this Court
hereby retains continuing jurisdiction over: (a) implementation and enforcement of the terms of
the Settlement and this Judgment; and (b) the Settling Parties for the purposes of implementing
and enforcing the Stipulation and Judgment.” Id. at 573. The court explained: “Such provisions
are often found in court settlement orders, and are widely enforced. . . . As a preliminary matter,
therefore, the court notes that it is wary of treading on matters properly reserved by another court
for that court’s review, such as whether the parties to a settlement approved by that court have
complied with the terms of their agreement.” Id. (citations omitted).

10

App. 33

Case 1:17-cv-01990-MEH Document 98 Filed 11/09/18 USDC Colorado Page 11 of 17

Likewise, in Ultimate Creations, Inc. v. McMahon, 300 F. App’x 528, 529 (9th Cir. 2008),
a case that appears to be on all fours, the Ninth Circuit found that when a settlement agreement is
entered into and put on the record in state court, with the state court explicitly retaining jurisdiction
over future disputes that might arise regarding the settlement agreement, the state court has
exclusive jurisdiction over such disputes. The appellate court also found that the word “exclusive
jurisdiction” need not have been used in order for this to be true; there, the retention of jurisdiction,
when viewed in context, implied exclusive jurisdiction in state court. Id. Finally, the court found
that a defendant, in a settlement agreement, may constitutionally submit itself to the exclusive
jurisdiction of a state court. Id. at 529–30.
Other courts have also found exclusive jurisdiction in the absence of specific exclusivity
language. See, e.g., United States v. Am. Soc’y of Composers, Authors & Publishers, 32 F.3d 727,
731 (2d Cir. 1994) (finding that federal court retained exclusive jurisdiction where a consent decree
provided that “[j]urisdiction of this cause is retained for the purpose of enabling any of the parties
to this Amended Final Judgment to make application to the Court for such further orders and
directions as may be necessary or appropriate in relation to the construction or carrying out of this
Judgment, for the modification thereof, for the enforcement of compliance therewith and for the
punishment of violations thereof”); Magnolia v. Conn. Gen. Life Ins. Co., 157 F. Supp. 2d 583,
587 (D. Md. 2001) (finding that the state court “intended to retain exclusive jurisdiction” where it
retained jurisdiction “as to all matters” relating to the “enforcement and interpretation” of the
settlement agreement and the final order, even though there was no express statement as to
exclusivity); see also Hankins v. CarMax, Inc., No. RDB-11-03685, 2012 WL 113824, at *5 (D.
Md. Jan. 13, 2012) (stating, in deciding a motion to remand to state court, that “where parties agree

11

App. 34

Case 1:17-cv-01990-MEH Document 98 Filed 11/09/18 USDC Colorado Page 12 of 17

to submit all matters relating to an action or a settlement to a specific court, that court is given
exclusive jurisdiction over those matters,” even though the word “exclusive” was not used).
This approach is consistent with Colorado law: “It is familiar law that, once a court takes
jurisdiction of an issue and of parties, it thereafter has exclusive jurisdiction of the subject and
matters ancillary thereto.” Utils. Bd. of Lamar v. Se. Colo. Power Ass’n, 468 P2d 36, 37 (Colo.
1970); see also Nationwide Mut. Ins. Co. v. Mayer, 833 P.2d 60, 61 (Colo. App. 1992) (stating
that if dual actions are filed in Colorado state court, the action filed first has “priority of
jurisdiction”).
There is contrary, but not persuasive, authority. See, e.g., Byker v. Smith, No. 16-cv-02034JEO, 2018 WL 2389797, at *3 n.8 (N.D. Ala. May 25, 2018) (“Ms. Smith argues that this court
lacks subject matter jurisdiction over this action because the Alabama state court retained
jurisdiction to enforce the settlement agreement, . . . [but] [a]n action regarding an alleged breach
of a settlement agreement is a new cause of action between the parties rather than a continuation
of the underlying state court action. The parties did not agree under the terms of the settlement
agreement that the Alabama state court would be the exclusive forum to resolve disputes regarding
the agreement.”). But the court in Byker did not cite any authority for this unsupported proposition.
I am firmly convinced the Garfield County District Court did intend to retain jurisdiction
over the settlement agreement. (Indeed, it has since resolved two reserved issues.) My belief is
bolstered by the jurisdictional statement in its Show Cause Order issued on September 28, 2018.
See ECF No. 64-4. Paragraph 2 of that section makes clear that TEP “remains subject to the
jurisdiction of the Court.” Id. ¶ 2 (Jurisdiction section). Paragraph 3 then states: “This Court has
the authority and jurisdiction to enforce its own orders and judgments. C.R.S. § 13-1-114(c) and
Miller v. EnCana Oil and Gas (USA), Inc., 405 P.3d 488, 493 (Colo. 2017).” ¶ 3, ECF No. 64-4.

12

App. 35

Case 1:17-cv-01990-MEH Document 98 Filed 11/09/18 USDC Colorado Page 13 of 17

Section 13-1-114(1)(c), in turn, provides that “[e]very court has power . . . [t]o compel obedience
to its lawful judgments, orders, and process and to the lawful orders of its judge out of court in
action or proceeding pending therein.” And Miller holds that where “compliance with the
settlement agreement became a part of the order of dismissal, the district court retains jurisdiction
to give effect to the agreement.” 405 P.3d at 493. Last, in Paragraph 4 of the Show Cause Order,
the state court notes that “[t]his Court expressly retained continuing jurisdiction to implement and
enforce the Settlement, together with its own orders related thereto, and in the Judgment entered
March 20, 2009 in this Case.” ¶ 4, ECF No. 64-4.
Whether the Garfield County District Court retained exclusive jurisdiction is admittedly a
tricky question. In Foley v. Wells Fargo Bank, N.A., 109 F. Supp. 3d 317 (D. Mass. 2015), the
parties in the settlement agreement included language giving the Northern District of California
exclusive jurisdiction over disputes, but the court order approving the settlement agreement
omitted any reference to exclusive jurisdiction: “This Court [the Northern District of California]
will retain continuing jurisdiction to interpret and enforce the settlement agreement.” Id. at 324.
The District of Massachusetts found that this omission meant that another federal court was not
divested of jurisdiction over a breach of settlement agreement claim. On the other hand, the Ninth
Circuit in Flanagan v. Arnaiz, 143 F.3d 540 (9th Cir. 1998), was faced with the following court
order approving a settlement agreement: “The Court shall retain jurisdiction of this action for
purposes of resolving any disputes that may arise in the future regarding the settlement agreement,
its terms or the enforcement thereof.” Id. at 543. The judgment contained a “materially identical
provision.” Id. The Ninth Circuit unambiguously stated that such a provision retaining jurisdiction
over a settlement agreement “implies that the retention was meant to be exclusive.” Id. at 545. It
reasoned that “it would make no sense for the district court to retain jurisdiction to interpret and

13

App. 36

Case 1:17-cv-01990-MEH Document 98 Filed 11/09/18 USDC Colorado Page 14 of 17

apply its own judgment to the future conduct contemplated by the judgment, yet have a state court
construing what the federal court meant in the judgment.” Id.
As demonstrated above, a district court can retain exclusive jurisdiction without necessarily
using the word “exclusive”; furthermore, I find the Flanagan reasoning to be very persuasive. In
the end, I look at the whole picture to assess whether Garfield County District Court intended to
retain exclusive jurisdiction over alleged breaches of the Settlement Agreement. In light of the
complex nature of the Lindauer litigation, the resources expended by the Garfield County District
Court, the involved mediation within that lawsuit officiated by former state district judge and
Colorado Supreme Court Justice Willian Neighbors, the statement by the parties in the Settlement
Agreement recognizing the continuing jurisdiction of the state district court, and that court’s
ultimate order retaining jurisdiction over “any issues concerning implementation of the Settlement
Agreement and enforcing this Final Judgment” (which judgment incorporated the Settlement
Agreement), I conclude that the state court action demonstrates an intent to retain exclusive
jurisdiction over alleged breaches of the Settlement Agreement. Given this, should a federal court
dismiss this action under any theory of abstention or comity? Based on the above-referenced cases
and the following analysis, I believe the answer is yes.
In Petoskey Investment Group, LLC v. Bear Creek Township, No. 5:03-CV-14, 2005 WL
1796130 (W.D. Mich. July 27, 2005), the court relied on principles of equity, comity and
federalism in stating that an alleged breach of a state court consent judgment, in the first instance,
should be heard by the state court from which the judgment emanated, in light of the state court’s
retention of jurisdiction for purposes of interpreting the judgment. Id. at *9. Similarly, in Weaver
v. Aegon USA, LLC, No. 4:14-cv-03436-RBH, 2015 WL 5691836 (D.S.C. Sept. 28, 2015), the
court relied on principles of comity and federalism in deferring to a state court that had expressly

14

App. 37

Case 1:17-cv-01990-MEH Document 98 Filed 11/09/18 USDC Colorado Page 15 of 17

retained “‘continuing and exclusive jurisdiction as to all matters relating to the administration,
consummation, enforcement, and interpretation of the Settlement Agreement and [the] Final
Judgment.’” Id. at *32.
Another decision relied on Younger abstention (see Younger v. Harris, 401 U.S. 37 (1971))
in dismissing a federal action. In Dandar v. Church of Scientology Flag Service Organization,
Inc., 619 F. App’x 945 (11th Cir. 2015), an attorney entered into a state court settlement to refrain
from bring adversarial proceedings against a church. The settlement agreement provided that the
state court would “retain jurisdiction to enforce” its terms. Thereafter the attorney filed a lawsuit
against the church in federal court; and later, the church went back to the state court to enforce the
agreement. The attorney filed a declaratory judgment action in federal court to enjoin the state
court from proceeding. The Eleventh Circuit noted: “First, the [district] court properly determined
that there is a state civil proceeding involving an order that is ‘uniquely in furtherance of the state
courts’ ability to perform their judicial functions.’ . . . Here, there is a pending state proceeding
involving enforcement of a settlement agreement entered into in a state-court case. And that
settlement agreement specifically provided that the state court retained jurisdiction to enforce its
terms.” Id. at 948. Because the federal court would interfere with a state court’s administration
of its duties by addressing the claims, the Eleventh Circuit affirmed the dismissal of the claims.
Id. at 948–49.
The Younger doctrine directs a federal court to abstain from exercising jurisdiction when
three conditions have been established: “First, there must be ongoing state . . . civil . . .proceedings.
Second, the state court must offer an adequate forum to hear the federal plaintiff’s claims from the
federal lawsuit. Third, the state proceeding must involve important state interests, matters which
traditionally look to state law for their resolution or implicate separately articulated state policies.”

15

App. 38

Case 1:17-cv-01990-MEH Document 98 Filed 11/09/18 USDC Colorado Page 16 of 17

Taylor v. Jaquez, 126 F.3d 1294, 1297 (10th Cir. 1997). Here, the state court proceedings have
been ongoing since 2006, with the state court resolving two reserved issues after the execution of
the Settlement Agreement and the judgment. The state court is an adequate forum, given its
previously handling of this case and its knowledge of this case and its intricacies. And the state
court has a “vital” and “important” interest in enforcing its orders and judgments and maintaining
the authority of its judicial system. See Pennzoil Co. v. Texaco, Inc., 481 U.S. 1, 12–14 (1987).
I am acutely aware that federal courts have an obligation to hear cases for which they have
jurisdiction, and that non-abstention remains the rule.

But as demonstrated above, the

overwhelming precedent from federal courts would favor deference to the state court under the
circumstances of this case. The Garfield County District Court is an available forum for the parties
to resolve the present dispute and is as capable as I am of entering the order that the parties seek,
which would approve a resolution of the dispute that has arisen since the entry of the original
Settlement Agreement and which would arguably amend that Agreement. Furthermore, that court
is better informed about the nuances of the Settlement Agreement, having overseen it for well over
a decade, and has expressly retained continuing jurisdiction. The state court’s intimate familiarity
will allow it to better assess the claims of the Sefcovic plaintiffs, as well as any objections to the
proposed class settlement, within the context of the entire state court litigation.
CONCLUSION
The Motion to Dismiss on Jurisdictional Grounds [filed October 5, 2018; ECF No. 67] is
stricken because it was filed by non-parties, as is the Reply Brief [filed November 7, 2018; ECF
No. 97]. Nevertheless, this action is dismissed without prejudice based on my independent
assessment of subject matter jurisdiction, which is informed by my independent research and the
parties’ thorough briefs and argument on this issue. In light of my ruling, the following motions

16

App. 39

Case 1:17-cv-01990-MEH Document 98 Filed 11/09/18 USDC Colorado Page 17 of 17

are denied as moot: Motion to Intervene [filed September 28, 2018; ECF No. 64]; Plaintiffs’
Unopposed Motion for Leave to File Their Second Amended Class Action Complaint [filed
October 26, 2018; ECF No. 87]; the Joint Motion for Final Approval of Class Settlement [filed
October 30, 2018; ECF No. 92]; Class Counsel’s Motion for an Award of Attorneys’ Fees,
Expenses, and an Incentive Award Payment to Class Representatives [filed October 30, 2018; ECF
No. 93]; and the Unopposed Motion for Enlargement of Page Limitation [filed November 7, 2018;
ECF No. 96]. The Final Fairness Hearing set for November 20, 2018, see ECF No. 60, is vacated.
Dated and entered at Denver, Colorado, this 9th day of November, 2018.
BY THE COURT:

Michael E. Hegarty
United States Magistrate Judge

17

App. 40

Case 1:17-cv-01990-MEH Document 109 Filed 01/23/19 USDC Colorado Page 1 of 10

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 17-cv-01990-MEH
ELNA SEFCOVIC, LLC,
JUHAN, LP, and
ROY ROYALTY, INC., individually and on behalf of all others similarly situated,
Plaintiffs/Counter Defendants,
v.
TEP ROCKY MOUNTAIN, LLC,
Defendant/Counterclaimant.

ORDER ON PENDING MOTIONS

Michael E. Hegarty, United States Magistrate Judge.
Plaintiffs have filed an Unopposed Motion to Reconsider the Court’s November 9, 2018
Order [filed November 20, 2018: ECF No. 100]. I held oral argument concerning this motion on
January 14, 2019. I believe my original order is correct insofar as it recognized that the vast
majority of relevant federal cases would, on a motion to remand or early motion to dismiss, defer
subject matter jurisdiction under comity principles in a case involving a breach of settlement when
the underlying agreement was made a part of a state court’s final judgment, and that state court
retained exclusive jurisdiction over the implementation of the settlement. However, because this
case involves facts that dictate against the exercise of comity here, I grant the motion. First, I will
clarify the basis for my November 9, 2018 Order. Second, I will vacate the Order for the reasons
stated herein.

1

App. 41

Case 1:17-cv-01990-MEH Document 109 Filed 01/23/19 USDC Colorado Page 2 of 10

I.

BACKGROUND

This lawsuit involves an alleged breach of a formula for calculating mineral royalties,
which formula was established in a 2008 settlement of a Garfield County, Colorado lawsuit. The
case was removed to this Court from Denver County District Court on August 17, 2017. After the
completion of class discovery, in August 2018, the parties moved for preliminary approval of a
class settlement, provisional certification of an opt-out settlement class, approval of notice to class
members, an order establishing opt-out and objection procedures, and the setting of a final hearing
date to consider approval of the class settlement, attorney’s fees, expenses and incentive awards.
I granted this motion on August 16, 2018.
Thereafter, on October 5, 2018, certain plaintiffs from the Garfield County settlement who
were not parties to this litigation attempted to intervene in this action and dismiss it. In my original
Order, I granted dismissal of this action based on the facts that the Garfield County, Colorado
District Court, in the prior settlement (the Lindauer case), the district judge entered an order in
which she intended to retain exclusive jurisdiction over a court-adopted and stipulated settlement
of a dispute over mineral royalty payments, and the parties’ lawsuit here arises squarely under that
settlement. The state court’s Judgment, at the parties’ request, gave approval to the class settlement
agreement, ordered that the parties “shall take any and all steps necessary to implement the
Settlement Agreement according to its terms and the terms of this Order,” “barred and permanently
enjoined” the class members “from commencing or prosecuting either directly . . . or in any
capacity, any of the Settled Claims,” and retain[ed] continuing jurisdiction of this action to address
any issues concerning implementation of the Settlement Agreement and enforcing this Final

2

App. 42

Case 1:17-cv-01990-MEH Document 109 Filed 01/23/19 USDC Colorado Page 3 of 10

Judgment.” ECF No. 67-2. As noted above, the present lawsuit involves as Plaintiffs some of the
class members from the Lindauer case, as well as the defendant from Lindauer. These Plaintiffs
contend that Defendant has not paid royalties consistent with the settlement and court order in
Lindauer.
In the state court Lindauer suit, there is pending a motion to enforce (in a contempt
proceeding) the Lindauer settlement agreement.
II.

ANALYSIS

The principal argument in the Motion to Reconsider is that Younger abstention (Younger
v. Harris, 401 U.S. 37 (1971)) does not apply to the facts of this case. However, although the
proposed Intervenors’ brief explains why Younger abstention is applicable here, Younger was not
the basis for my decision. In my seventeen-page order, I discussed Younger for roughly one page,
and only then because a cited case had relied on that doctrine.
Rather, I believed dismissal without prejudice was warranted under a long line of cases,
many that were cited in the original order, in which one court gives deference to another court that
previously issued a court-ordered settlement or consent decree resolving a case, when the parties
to that prior resolution are attempting to have its terms interpreted by some other court. This is
not an abstention doctrine, although in my Order I did reference “abstention principles.” Order at
2. I now clarify that dismissal would be appropriate here under principles of comity and wise
judicial administration. For that reason, my original order was more akin to the doctrine set forth
in Colorado River Water Conservation Dist. v. United States, 424 U.S. 800 (1976). That Court
stated:

3

App. 43

Case 1:17-cv-01990-MEH Document 109 Filed 01/23/19 USDC Colorado Page 4 of 10

Although this case falls within none of the abstention categories, there are principles
unrelated to considerations of proper constitutional adjudication and regard for federalstate relations which govern in situations involving the contemporaneous exercise of
concurrent jurisdictions, either by federal courts or by state and federal courts. These
principles rest on considerations of “(w)ise judicial administration, giving regard to
conservation of judicial resources and comprehensive disposition of litigation.”
Id. at 817 (citations omitted). The Tenth Circuit has noted that a Colorado River-type dismissal is
not abstention but rather “an exception to our jurisdictional mandate from Congress.” Rienhardt
v. Kelly, 164 F.3d 1296, 1303 (10th Cir. 1999). Incidentally, the Colorado River decision approved
dismissal despite its recognition of the “virtually unflagging obligation of the federal courts to
exercise the jurisdiction given them.” 424 U.S. at 817 (language relied upon by the parties in their
Motion for Reconsideration). I cite Colorado River primarily for the principle that, although to be
used only in extremely unusual cases, there are judicially created exceptions to the exercise of
subject matter jurisdiction. However, as with Younger abstention, in my original order I did not
intend here to fit my decision squarely into the Colorado River or any other well-known Supreme
Court doctrine. Rather, it was the doctrine of comity that most clearly supported the basis for
dismissal in the original order.
The doctrine of comity “teaches that one court should defer action on causes properly
within its jurisdiction until the courts of another sovereignty with concurrent powers, and already
cognizant of the litigation, have had an opportunity to pass upon the matter.” Rhines v. Weber,
544 U.S. 269, 274 (2005) (citation omitted). The doctrine “counsels lower federal courts to resist
engagement in certain cases falling within their jurisdiction.” Direct Mktg. Ass'n v. Brohl, 135 S.
Ct. 1124, 1126 (2015). The cases I cited in support of my original Order do not generally rely
upon abstention, but on principles of comity. This type of comity is not dependent on a statefederal dichotomy, but on wise judicial administration among several jurisdictions.

Cases

supporting dismissal which I cited in my original Order involve federal courts dismissing cases in
4

App. 44

Case 1:17-cv-01990-MEH Document 109 Filed 01/23/19 USDC Colorado Page 5 of 10

deference to other federal courts as well as to state courts, and even state courts attempting to
adjudicate matters contained in federal court orders approving settlements. 1 The common thread
is that the parties in a prior case resolved their lawsuit with the assistance of the court (either with
a consent decree or a court order adopting a settlement), which court explicitly retained jurisdiction
(interpreted as intended to be exclusive) over disputes arising under the resolution. All but one
decision cited in the original Order concluded that deference to the settlement court was
appropriate.
Thus, I clarify my analysis in the original order as follows: (1) courts are authorized to
retain jurisdiction over settlement agreements, 2 and (2) when a court has done so, and that
jurisdiction is explicitly (or implicitly under the totality of circumstances) exclusive, then (3) the
doctrine of comity permits a court, even in the presence of subject matter jurisdiction, to defer to
the settlement court in cases requiring the interpretation and enforcement of the settlement
agreement. Prior to oral argument concerning the Motion to Reconsider, I believed this case
presented an appropriately narrow factual situation to qualify as one of those rare exceptions to the
court’s “virtually unflagging obligation” to exercise jurisdiction when it exists.
Comity in this context is not an absolute obligation. Petoskey Inv. Grp., LLC v. Bear Creek
Twp., 5:03-CV-14, 2005 WL 1796130, at *9 (W.D. Mich. July 27, 2005). Moreover, I believe any
deferral here ought to rely upon considerations of wise judicial administration. Moses H. Cone
Mem. Hosp. v. Mercury Constr. Corp., 460 U.S. 1, 14-15 (1983). As the Supreme Court noted in
Moses H. Cone Hosp., “the decision whether to dismiss a federal action because of parallel state-

1

Of course, the doctrine of comity can also apply between state courts. E.g., Franchise Tax Bd. of California v.
Hyatt, 538 U.S. 488, 493 (2003).
2
Kokkonen v. Guardian Life Ins. Co. of Am., 511 U.S. 375 (1994).

5

App. 45

Case 1:17-cv-01990-MEH Document 109 Filed 01/23/19 USDC Colorado Page 6 of 10

court litigation does not rest on a mechanical checklist, but on a careful balancing of the important
factors as they apply in a given case, with the balance heavily weighted in favor of the exercise of
jurisdiction. The weight to be given to any one factor may vary greatly from case to case,
depending on the particular setting of the case.” Id. at 15. There are three factors present in this
case which, I believe after hearing the parties, counsel against dismissal.
First, in every case I could find in which comity or some other doctrine was cited in favor
of dismissing or remanding a federal action in favor of a state court that had retained jurisdiction
over a settlement, the matter was brought to the federal court’s attention within weeks or a very
few months after initiation of the case, before any substantive proceedings had transpired.
Tomerlin v. Johns Hopkins Univ., Inc., 689 F. App’x 578, 578–79 (9th Cir. Apr. 24, 2017) (ninety
days); Ultimate Creations, Inc. v. McMahon, 300 F. App’x 528, 529 (9th Cir. Nov. 17, 2008)
(thirteen days); Flanagan v. Arnaiz, 143 F.3d 540 (9th Cir. 1998) (immediate motion to enjoin
other lawsut); Weaver v. Aegon USA, LLC, No. 4:14-cv-03436-RBH, 2015 WL 5691836, at *32
(D.S.C. Sept. 28, 2015) (sixty days); Hankins v. CarMax, Inc., No. RDB-11-03685, 2012 WL
113824, at *5 (D. Md. Jan. 13, 2012) (six days); Bar Codes Talk, Inc. v. GS1, Inc., No. 8:10-cv1462-T-30MAP, 2010 WL 4510982, at *2 (M.D. Fla. Nov. 2, 2010) (thirty days); Petoskey Inv.
Grp. V. Bear Creek Township, 2005 WL 1796130 (120 days); LLC Magnolia v. Conn. Gen. Life
Ins. Co., 157 F. Supp. 2d 583, 587 (D. Md. 2001) (twenty-one days). In contrast, the present case
has been fully litigated; the parties have settled the case; the Court has given preliminary approval
to the settlement; the time for objecting to the settlement has passed; and the only proceeding left
is a fairness hearing. To jettison the case at this point would be a significant waste of public and
private resources and certainly inconsistent with wise judicial administration.

6

App. 46

Case 1:17-cv-01990-MEH Document 109 Filed 01/23/19 USDC Colorado Page 7 of 10

Second, counsel for the proposed Intervenors here admitted at oral argument that, although
he was aware of this lawsuit within months of its filing, he decided to monitor what the outcome
of the case would be, in order to determine what action would be his clients’ best interest. I do not
believe a “wait and see” approach is consistent with counsel’s argument that this Court has no
subject matter jurisdiction and, further, this delay caused the parties here (and the Court) to expend
substantial resources in the administration of the case. It appears from the case law that arguments
concerning comity can be waived. E.g., Orazio v. Town of North Hempstead, 426 F. Supp. 1144,
1147 (E.D.N.Y. 1977) (“comity . . . may be waived . . . [b]y not raising it”). If so, proposed
Intervenors’ actions have waived it here.
Finally, counsel for proposed Intervenors acknowledged at the hearing that the royalty
payments required by the Lindauer settlement will likely endure for thirty to fifty years. He also
acknowledged that, in light of the Colorado mandatory retirement age for judges, the judicial
officer who issued the Lindauer judgment will not be presiding over this case for its duration
(indeed, most likely not even for the next decade), so the case will pass to other judges who have
no familiarity with the case or the settlement. I am skeptical of any court’s authority to bind parties
to one forum for all possible disputes arising out of the settlement for such an extended period of
time, essentially in perpetuity. I can certainly understand retaining jurisdiction for a limited period
to ensure the effective implementation of the settlement. However, at the time of the filing of this
lawsuit, the settlement agreement had been in place for nearly a decade, there were no proceedings
pending in the Lindauer case (and apparently had not been any for years), and the parties to this
lawsuit, who were parties in Lindauer and who were diverse in citizenship, litigated this breach of
contract action (which satisfied the amount in controversy requirement) without challenging

7

App. 47

Case 1:17-cv-01990-MEH Document 109 Filed 01/23/19 USDC Colorado Page 8 of 10

subject matter jurisdiction after removal from state court. The federal courts are as capable of
interpreting settlement agreements (and, in fact, do so on a regular basis) as the state courts.
Other arguments raised by the proposed Intervenors are not persuasive. Beyond the
exclusive jurisdiction argument, proposed Intervenors raise the doctrine of forum non conveniens.
For the same reasons as relied upon in granting reconsideration herein, I do believe consideration
of the relevant factors would lead to the same conclusion. In the unique circumstance of a decadeslong payout of oil and gas royalties, there is no indication that the parties contemplated Garfield
County to the exclusive forum for the rest of their respective lives.
Next, proposed intervenors raise Younger abstention, but I believe the third required
element, interference with important state interests, is not present. Although the parties represent
that, a year after this case was filed and removed, the Lindauer class plaintiffs filed a motion in
the state court under Colo. R. Civ. P. 107 (civil contempt) to enforce the settlement agreement,
this Court is not enjoining that proceeding in any manner. As noted above, the federal courts are
an adequate alternative forum, when subject matter jurisdiction exists, to interpret an eleven-yearold contract. While it is true that “[a] State's interest in the contempt process, through which it
vindicates the regular operation of its judicial system, so long as that system itself affords the
opportunity to pursue federal claims within it, is surely an important interest,” Juidice v. Vail, 430
U.S. 327, 335 (1977), this Court, unlike in cases such as Juidice, in not “interfer[ing] in a case
where the proceedings were already pending in a state court.” Id.
In addition, proposed Intervenors cite the Colorado River doctrine, addressed above. For
all the reasons stated herein, I do not believe consideration of wise judicial administration,

8

App. 48

Case 1:17-cv-01990-MEH Document 109 Filed 01/23/19 USDC Colorado Page 9 of 10

conservation of judicial resources, and comprehensive disposition of litigation have any force here,
when the case is at its end.
Finally, proposed Intervenors argue that the Plaintiffs in this case are not the real parties in
interest in this dispute, because they are not the class representatives from the Lindauer litigation.
Plaintiffs here allege damages to their own financial interests and are, as a matter of law, real
parties in interest under Fed. R. Civ. P. 17(a). Proposed Intervenors cite no principle of law
requiring that all beneficiaries to every settlement agreement must be present in any subsequent
lawsuit concerning the interpretation of that agreement. Under proposed Intervenors’ argument,
if the original class representatives from Lindauer choose not to file a lawsuit alleging that they
are being denied royalties under the settlement agreement, no one in the class could. That is not
correct.
Therefore, for the foregoing reasons, “[o]n this non-jurisdictional prudential matter, [I] do
not dismiss this case on comity grounds.” Direct Mktg. Ass'n v. Brohl, 814 F.3d 1129, 1134
(10th Cir. 2016). The Court will vacate its order of dismissal.
III.

CONCLUSION

The Unopposed Motion to Reconsider the Court’s November 9, 2018 Order [filed
November 20, 2018: ECF No. 100] is granted. This Court’s order dismissing this action [filed
November 9, 2018; ECF No. 98] is vacated. The Clerk is directed to reopen this case. The
parties are directed to file a status report concerning their proposal for conducting the fairness
hearing and dismissing this case.

9

App. 49

Case 1:17-cv-01990-MEH Document 109 Filed 01/23/19 USDC Colorado Page 10 of 10

Dated and entered at Denver, Colorado, this 23rd day of January, 2019.
BY THE COURT:

Michael E. Hegarty
United States Magistrate Judge

10

App. 50

Case 1:17-cv-01990-MEH Document 130 Filed 03/15/19 USDC Colorado Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 17-cv-01990-MEH
ELNA SEFCOVIC, LLC, WHITE RIVER
ROYALTIES, LLC, JUHAN, LP and ROY
ROYALTY, INC., individually and on behalf of
all others similarly situated,
Plaintiffs,
v.
TEP ROCKY MOUNTAIN, LLC,
Defendant.

ORDER ON CLASS COUNSEL’S MOTION FOR ATTORNEYS’ FEES,
LITIGATION EXPENSES, AND INCENTIVE AWARD PAYMENTS
TO THE CLASS REPRESENTATIVES

This matter comes before the Court on Class Counsel’s motion for an award of
attorneys’ fees, litigation expenses, and incentive payments to three Class Representatives, filed
on October 30, 2018. ECF No. 93. The Court has considered Class Counsel’s motion, the
memorandum in support thereof, the exhibits and declarations submitted in support of the
motion, the arguments presented by Class Counsel at the final approval hearing before the
Court on February 20, 2019, and all other statements in the record relating to the requested
attorneys’ fees, litigation expenses, and the requested Class Representative incentive awards.
The Court further notes that Defendant TEP Rocky Mountain, LLC (“TEP”) has taken no
position with regard to this motion. The motion is granted as follows.
FINDINGS OF FACT AND CONCLUSIONS OF LAW
Having considered the foregoing, the Court finds and concludes as follows:

App. 51

Case 1:17-cv-01990-MEH Document 130 Filed 03/15/19 USDC Colorado Page 2 of 6

1. Pursuant to the Settlement Agreement between the Plaintiffs and TEP, TEP has agreed to
resolve the Class members’ claims for royalty underpayments on TEP’s natural gas
production through May 31, 2018 for the amount of $10,025,308. After taking into account the
opt-out credit to which TEP is entitled because of the election of certain Class members to
exclude themselves from the Settlement Class, the Net Settlement Fund, before subtraction of
litigation expenses, is $7,991,505.33.
2. In addition to the Net Settlement Fund payment, TEP will implement a future royalty
calculation method for its calculation and payment of royalties on natural gas produced and sold
on and after June 1, 2018 to the members of Subclass I and Subclass IV.
3. Class Counsel request reimbursement of $104,915.95 for litigation expenses. This includes
$95,615.95 for litigation expenses that Class Counsel incurred through October 30, 2018, as well
as $9,300.00 in additional litigation expenses that Class Counsel expect to incur in the further
handling of this class litigation and class settlement administration.
4. The Court finds that the litigation expenses for which Class Counsel seek reimbursement
has been reasonably incurred by Class Counsel in the prosecution of this litigation, and that the
estimated future expenses will be reasonably incurred in the further handling of this litigation by
Class Counsel. The Court therefore approves Class Counsel’s request for reimbursement of
litigation expenses in the amount of $104,915.95.
5. Class Counsel seek attorneys’ fees of $2,627,600.00, which equal 33.33 percent of the
$7,883,589.38 Net Class Settlement amount, after subtracting: (1) the requested litigation
expenses of $104,915.95; and (2) the $3,000.00 escrow agent expense associated with
administering the Class Settlement Fund.

2

App. 52

Case 1:17-cv-01990-MEH Document 130 Filed 03/15/19 USDC Colorado Page 3 of 6

6. The Class Settlement Agreement creates a “common fund” for payments to the Settlement
Class members. Under Tenth Circuit case law, attorneys’ fees in common fund cases are generally
awarded based on a reasonable percentage of the fund created. Brown v. Phillips Petroleum Co.,
838 F.2d 451, 454 (10th Cir. 1988); Gottlieb v. Barry, 43 F.3d 474, 482-83 (10th Cir. 1994). In
Brown, the Tenth Circuit held that determining an attorneys’ fee award based on a percentage of a
common fund is warranted, particularly where the common fund has been created as a result of
class counsel’s efforts. 838 F.2d at 454.
7. In determining whether Class Counsel’s request for an award of attorneys’ fees equal to
one-third of the Net Settlement Fund, minus expenses, is warranted, the Tenth Circuit directs that
the twelve factors identified in Johnson v. Georgia Highway Express, Inc., 488 F.2d 714, 717-19
(5th Cir. 1974), should be considered in a common fund case. Id.

An evaluation of the

most pertinent Johnson factors confirms that Class Counsel’s request for an award of attorneys’
fees is reasonable, and should be approved.
8. In Brown, the Tenth Circuit recognized that the Johnson factor to be given the greatest
weight is the monetary result achieved for the benefit of the class, which is often considered to
be “decisive.”

Brown, 838 F.2d at 456.

Here, the monetary results Class Counsel have

recovered for the benefit of the Class in this case are very good compared to the amount in
dispute, which supports Class Counsel’s fee request.
9. Two other Johnson factors to consider are the “customary fee” and the fees awarded in
similar class action cases.

Brown, 838 F.2d at 454-55.

In numerous other class action

royalty underpayment cases, in which this Court or Colorado state courts have awarded
attorneys’ fees to class counsel from a settlement fund, the fees awarded generally have been
for one-third of the class settlement fund, or sometimes a higher percentage of the settlement
fund. (See Exhibits 2-7 attached to Class Counsel’s memorandum in support of their motion for
3
attorneys’ fees). Thus, Class Counsel’s requested attorneys’ fees in this case are clearly in

App. 53

Case 1:17-cv-01990-MEH Document 130 Filed 03/15/19 USDC Colorado Page 4 of 6

accordance with the customary attorneys’ fee awards to class counsel in similar Colorado royalty
underpayment class action cases.

10. Another Johnson factor is the time and labor involved. Class Counsel’s time value lodestar
in this case, through October 30, 2018, is in the amount of $1,815,980.00. In addition, Class
Counsel estimate that Class Counsel will incur $98,750.00 in additional hourly rate lodestar
through the completion of this litigation. Thus, Class Counsel’s total hourly rate lodestar for this
class action litigation is estimated to be approximately $1,919,105.00.

Class Counsel’s

attorneys’ fee request of $2,627,600.00 therefore represents a “multiplier” of approximately
1.37 times Class Counsel’s $1,919,105.00 lodestar amount. This 1.37 multiplier is comparable
to the lodestar multipliers which have been consistently awarded by judges in the District of
Colorado. See Davis v. Crilly, 292 F. Supp. 3d 1167, 1174 (D. Colo. 2018); Shaulis v. Falcon
Subsidiary, LLC, 2018 WL 4620388, at *2 (D. Colo. Sept. 26, 2018). Thus, the time and labor
devoted by Class Counsel fully supports Class Counsel’s requested attorneys’ fee award.
11. An additional factor supporting Class Counsel’s requested attorneys’ fee award is that
Class Counsel have represented each of the Class Representatives on a contingent fee basis, under
which Class Counsel’s contingent fee is one-third of the net recovery obtained, after subtraction
of the client’s share of litigation expenses. The fact that Class Counsel represented the Class
Representatives on a contingent fee basis meant that Class Counsel were at risk for both their time
investment and their investment of substantial amounts in litigation expenses. The significant
litigation risks faced by Class Counsel at the outset of this case further supports Class Counsel’s
fee request. See Lucas v. Kmart Corp., 2006 WL 2729260, at * 6 (D. Colo. July 27, 2006).

4

App. 54

Case 1:17-cv-01990-MEH Document 130 Filed 03/15/19 USDC Colorado Page 5 of 6

12. Based on the foregoing, the Court finds that an analysis of the relevant Johnson factors
confirms that an award of attorneys’ fees to Class Counsel in the amount of $2,627,600 is
warranted.
13. Class Counsel are also requesting approval of incentive awards totaling $15,000.00 for three
Class Representatives, as follows: $5,000 to Elna Sefcovic, LLC; $5,000 to Juhan, LP; and
$5,000 to Roy Royalty, Inc. Each Class Representative has been actively involved in working
with Class Counsel during this litigation process by providing documents and information to
Class Counsel and in consulting with Class Counsel regarding various aspects of this litigation.
The purpose of incentive awards is to encourage people with significant claims to pursue actions
on behalf of others similarly situated. In re Cardizem CD Antitrust Litig., 218 F.R.D. 508, 535
(E.D. Mich. 2003). Numerous courts have recognized that incentive awards are an efficient
and productive way of encouraging members of a class to become class representatives, and
rewarding individual efforts taken on behalf of a class. See Hadix v. Johnson, 323 F.3d 895, 897
(6th Cir. 2003); In re Mego Fin. Corp. Sec. Litig., 213 F.3d 454, 463 (9th Cir. 2000).
14. Consistent with the foregoing, this Court finds that the request for incentive awards to the
Class Representatives, in the total amount of $15,000.00, is reasonable and consistent with
incentive awards in other class action litigation. See, Cook v. Niedert, 142 F.2d 1004, 1016 (7th
Cir. 1998) (approving incentive award of $25,000 for named plaintiff whose settlement was
valued at $13 million dollars).
THEREFORE, IT IS HEREBY ORDERED THAT:
1. Class Counsel are awarded the sum of $104,915.95 in reimbursement for litigation
expenses which they have incurred and which they reasonably expect to incur through the
conclusion of this litigation.

5

App. 55

Case 1:17-cv-01990-MEH Document 130 Filed 03/15/19 USDC Colorado Page 6 of 6

2. Class Counsel are awarded attorneys’ fees in the requested amount of $2,627,600.00.
3. Incentive awards to three Class Representatives are hereby approved in the total amount of
$15,000.00 to be paid as follows: $5,000 to Elna Sefcovic, LLC; $5,000 to Juhan, LP; and
$5,000 to Roy Royalty, Inc.
4. The attorneys’ fees and litigation expenses awarded to Class Counsel should be paid from
the Class Settlement Escrow account.
SO ORDERED.

DATED: March 15, 2019.

s/Michael E. Hegarty
United States Magistrate Judge

6

App. 56

Case 1:17-cv-01990-MEH Document 131 Filed 03/15/19 USDC Colorado Page 1 of 11

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
United States Magistrate Judge Michael E. Hegarty
Civil Action No. 17-cv-01990-MEH
ELNA SEFCOVIC, LLC,
WHITE RIVER ROYALTIES, LLC,
JUHAN, LP, and
ROY ROYALTY, INC., individually and on behalf of all others individually situated,
Plaintiffs,
v.
TEP ROCKY MOUNTAIN LLC,
Defendant.
_____________________________________________________________________________
ORDER APPROVING CLASS SETTLEMENT
AND FINAL JUDGMENT
______________________________________________________________________________

The parties have filed a “Joint Motion for Final Approval of Class Settlement.” ECF No.
92. After extensive briefing and a full fairness hearing on the merits of the proposed settlement,
the Court enters its findings and conclusions as follows:
A. On July 18, 2017, Plaintiffs Elna Sefcovic, LLC and Juhan, LP filed a Class Action
Complaint against TEP Rocky Mountain, LLC (TEP), TRDC LLC, and G2X Resources
LLC ("the Sefcovic Case") in the District Court for the City and County of Denver,
Colorado, alleging generally that TEP underpaid royalties to Plaintiffs and similarly
situated royalty and overriding royalty owners over a six-year period. These
underpayments were alleged to be in breach of the Plaintiffs’ royalty instruments and the
terms of a class action settlement agreement reached in 2008 in Lindauer v. Williams
1

App. 57

Case 1:17-cv-01990-MEH Document 131 Filed 03/15/19 USDC Colorado Page 2 of 11

Production RMT Co., 2006-CV-317 (Garfield County, Colorado District Court) (“the
Lindauer Settlement Agreement”). TEP denies that it underpaid royalties.
B. On August 17, 2017, TEP removed the Sefcovic Case to this Court. Plaintiffs voluntarily
dismissed TRDC LLC and G2X Resources LLC on September 26, 2017. TEP filed its
Answer and Counterclaim on September 28, 2017. Plaintiffs filed their First Amended
Class Action Complaint and Demand for Jury Trial on February 22, 2018, to which TEP
filed its Answer and Counterclaim on March 8, 2018. Plaintiffs filed their Second
Amended Class Action Complaint and Demand for Jury Trial on January 29, 2019 (adding
White River Royalties, LLC as a named Plaintiff), to which TEP filed its Answer and
Counterclaim on February 11, 2019.
C. On August 13, 2018, the Parties filed their Joint Motion for Order (1) Preliminarily
Approving Class Settlement, (2) Provisionally Certifying Opt-Out Settlement Class, (3)
Approving Notice to Class Members, (4) Establishing Opt Out and Objection Procedures,
and (5) Setting a Final Hearing Date to Consider Final Approval of the Class Settlement,
Attorneys’ Fees, Expenses, and Incentive Awards (ECF No. 56).

In the proposed

settlement (“the Settlement Agreement”), TEP agreed to pay over $10 million to resolve
the class’ royalty underpayment claims on TEP’s production and sale of natural gas (and
natural gas liquids) since July 2011, extending to TEP’s royalty payments prior to June 1,
2018. In addition, TEP also agreed to a method of calculating royalties paid on or after
June 1, 2018 to certain owners under particular royalty instruments.
D. On August 16, 2018, this Court granted the Plaintiffs’ and Defendant’s (“the Parties”) joint
motion to provisionally certify, for settlement purposes, the proposed Class and its four
Subclasses (“the Settlement Class”) under Fed. R. Civ. P. 23(a) and (b)(3) (“the

2

App. 58

Case 1:17-cv-01990-MEH Document 131 Filed 03/15/19 USDC Colorado Page 3 of 11

Preliminary Order”). ECF No. 61. In the Preliminary Order, the Court found that each of
the requirements for certification of a Rule 23(b)(3) Class has been satisfied in this case.
The Court further found preliminarily that, among other things, the Settlement Agreement
was fair, reasonable and adequate. The Order directed that notice of the proposed
Settlement Agreement be mailed to the Settlement Class. The Court also set a final fairness
hearing date. Thereafter, TEP paid $10,025,308.00 into an escrow account maintained by
Bank of Oklahoma Financial (“the Settlement Amount”), representing the total settlement
funds identified in Paragraph 2 of the Settlement Agreement.
E. A Notice informing the certified Class of the certification of this case as a class action and
of the proposed Settlement Agreement was mailed to approximately 643 members of the
Class on August 21, 2018. The Notice informed the members of the Class of their right to
exclude themselves from the Settlement Class. Thirty-six individuals and entities elected
to exclude themselves from the Settlement Class. The excluded entities and individuals
(“the Settlement Class Excluded Individuals and Entities”) are not part of the Settlement
Class on whose behalf the proposed Class Settlement has been negotiated.
F. On October 30, 2018, the Parties filed their Joint Motion for Final Approval of Class
Settlement seeking approval of a settlement of certain claims existing between the
Settlement Class and TEP (“the Released Claims”). The extent of the Released Claims is
discussed in the Settlement Agreement and, more specifically, in Paragraph 6 of the
Settlement Agreement (limiting releases to calculation of royalties paid by TEP prior to
June 1, 2018).
G. The Settlement Class is defined as follows:
All persons and entities to whom TEP has paid royalties and/or overriding royalties, and
deducted post-production costs from those royalties and/or overriding royalties, including
3

App. 59

Case 1:17-cv-01990-MEH Document 131 Filed 03/15/19 USDC Colorado Page 4 of 11

owners whose royalties currently are held in suspense, since July 1, 2011, on natural gas
production from any well subject to the oil and gas lease agreements which the settling
parties in the Lindauer Settlement identified as Category 2, Category 3, Category 5, and
Category 11 instruments.
The proposed Settlement Agreement divides the Settlement Class into four Subclasses, as
follows:
Subclass 1: Elna Sefcovic, LLC, White River Royalties, LLC, and all persons and entities
to whom TEP has paid royalties, and deducted post-production costs from those royalties,
including owners whose royalties currently are held in suspense, since July 1, 2011, on
natural gas production from any well subject to the oil and gas lease agreements which the
settling parties in the Lindauer Settlement identified as either Category 2 or Category 3
royalty instruments.
Subclass 2: Juhan, LP, and all persons and entities to whom TEP has paid royalties and/or
overriding royalties, and deducted post production costs from those royalties and/or
overriding royalties, including owners whose royalties currently are held in suspense, since
July 1, 2011, on natural gas production from any well subject to the oil and gas lease
agreements which the settling parties in the Lindauer Settlement identified as Category 5
instruments, and that currently are identified by TEP as Category 5 instruments.
Subclass 3: Roy Royalty, Inc., Juhan, LP, and all persons and entities to whom TEP has
paid royalties and/or overriding royalties, and deducted post-production costs from those
royalties and/or overriding royalties, including owners whose royalties currently are held
in suspense, since July 1, 2011, on natural gas production from any well subject to the oil
and gas lease agreements which the settling parties in the Lindauer Settlement identified
as Category 11 instruments, and that currently are identified by TEP as Category 11
instruments.
Subclass 4: Juhan, LP, and all persons and entities to whom TEP has paid royalties and/or
overriding royalties, and deducted post production costs from those royalties and/or
overriding royalties, including owners whose royalties currently are held in suspense, since
July 1, 2011, on natural gas production from any well subject to the oil and gas lease
agreements which the settling parties in the Lindauer Settlement identified as Category 5
or 11 instruments, but that currently are not identified by TEP as exclusively Category 5
or Category 11 instruments.

H. Attached as Exhibit A to the joint motion for preliminary approval of the settlement (ECF
No. 56) is the Settlement Agreement describing the Released Claims that are being settled
and setting forth the terms of the Parties’ Settlement Agreement. The Settlement

4

App. 60

Case 1:17-cv-01990-MEH Document 131 Filed 03/15/19 USDC Colorado Page 5 of 11

Agreement is attached hereto as Exhibit 1 and its terms, including the definitions, are
incorporated into this Order Approving Final Settlement as if fully set forth herein.
I. In accordance with the Court's Preliminary Order, Plaintiffs caused to be mailed to
potential members of the Settlement Class a notice (“the Settlement Notice”) in the form
approved by the Court in the Preliminary Order. The Court finds that the Settlement Notice
provided to potential members of the Settlement Class constituted the best and most
practicable notice under the circumstances and included individual notice to all members
of the Settlement Class who could be identified by reasonable effort, thereby complying
fully with due process and Rule 23 of the Federal Rules of Civil Procedure.
J. On February 20, 2019, the Court held a hearing on the proposed Settlement Agreement, at
which time all interested persons were given an opportunity to be heard. The Court
entertained extensive argument, both in briefs and in several hearings including the fairness
hearing, from attorneys representing both non-Class members (individuals or entities who
were class members in the decade-old Lindauer settlement in state court) and attorneys for
individuals and entities who voluntarily excluded themselves from this Settlement Class.
The Court also received testimony from accounting experts. The principal argument
advanced by the settlement objectors is the uncertainty of future obligations by the
Settlement Class to incur deductions from their royalty payments based on post-production
costs. However, based on the evidence presented to me, those uncertainties have always
been present even since the decade-old Lindauer settlement that preceded this case; the
royalty holders are aware of those uncertainties and still believe this Settlement Agreement
is in their best interests; and this Settlement Agreement does not preclude future legal

5

App. 61

Case 1:17-cv-01990-MEH Document 131 Filed 03/15/19 USDC Colorado Page 6 of 11

action based on alleged wrongful conduct of TEP in calculating future royalty payments.
Therefore, this argument is not a basis to reject an otherwise fair and just settlement.
K. The Court has read and considered all submissions in connection with the Settlement
Agreement. Having done so, the Court has determined that approval of the Settlement
Agreement (1) will bestow a substantial economic benefit on the Settlement Class, (2) will
result in substantial savings in time and money to the litigants and the Court; (3) will further
the interests of justice; (4) is the product of good faith arm's length negotiations between
the Parties who are represented by very experienced and capable counsel; (5) was
negotiated in a case involving serious questions of law and fact, including TEP’s argument
that it was entitled to an offset of ad valorem taxes from the Settlement Class members,
which placed the ultimate outcome of the litigation in doubt; (6) will further the Settlement
Class members’ interest in immediate recovery as opposed to waiting for the outcome of
protracted litigation; and (7) has been considered by the Settlement Class members, who
overwhelmingly believe it is in their best interests to enter into the Settlement Agreement.
NOW, THEREFORE, GOOD CAUSE APPEARING, IT IS HEREBY ORDERED, ADJUDGED
AND DECREED THAT:
1.

The Joint Motion for Final Approval of Class Settlement, ECF No. 92, is granted.

2.

The Settlement Agreement, including the terms defined therein, is incorporated herein.
The Court has jurisdiction over the subject matter of this litigation and all parties to this
litigation, including all members of the Settlement Class.

3.

The certified Settlement Class and Subclasses are defined for purposes of the
Agreement and this Order Approving Final Settlement as set forth in Paragraphs D, E,
and G above. There are questions of law and fact common to the Settlement Class and
Subclasses. The claims of the Plaintiff class representatives are typical of the claims of
6

App. 62

Case 1:17-cv-01990-MEH Document 131 Filed 03/15/19 USDC Colorado Page 7 of 11

the Settlement Class and Subclasses. The Plaintiff class representatives will fairly and
adequately protect the interests of the Settlement Class and Subclasses. The
prerequisites to maintain this action as a class action set forth in Fed. R. Civ. P. 23(a)
are met.
4.

The questions of law and fact common to all members of the Settlement Class and
Subclasses predominate over questions, if any, affecting only individual members, and
a class action is superior to any other available method for the fair and efficient
adjudication of the controversy. The requirements of Fed. R. Civ. P. 23(b)(3) are met.
Accordingly, the Settlement Class and Subclasses identified above are certified
pursuant to Fed. R. Civ. P. 23(b)(3).

5.

Plaintiffs Elna Sefcovic, LLC, White River Royalties, LLC, Juhan LP, and Roy
Royalty, Inc, are designated as the Class Representatives. George A. Barton and Stacy
A. Burrows of the Law Offices of George A. Barton, P.C. are designated as Class
Counsel.

6.

This Settlement Agreement was made in good faith and its terms are fair, reasonable
and adequate as to the Settlement Class and Subclasses. Therefore, the Settlement
Agreement is approved in all respects, and shall be binding upon, and inure to the
benefit of, all members of the Settlement Class and Subclasses.

7.

The Settlement Class Excluded Individuals and Entities are not bound by either the
Agreement or Order Approving Final Settlement and may pursue their own individual
remedies, if any, as to any of the Released Claims.

8.

Mutual Releases, Covenants and Warranties.

7

App. 63

Case 1:17-cv-01990-MEH Document 131 Filed 03/15/19 USDC Colorado Page 8 of 11

Release by TEP. Upon the occurrence of the Approval Event and the release and
distribution of the Settlement Funds from the Escrow Account pursuant to
Paragraphs 2 and 5 of the Settlement Agreement, TEP, for itself and its agents,
officers, directors, partners, partnerships, parents, shareholders, employees,
consultants, subsidiaries, affiliates, insurers, successors and assigns, fully and
forever releases and discharges the Settlement Class, and each of them, from any
and all Released Claims, except for rights and obligations created by this Settlement
Agreement. It is understood and agreed that this Release extends to, but is not
limited to, the counterclaim asserted by TEP.
Release by Settlement Class Members. Upon the occurrence of the Approval Event
and the release of the Settlement Funds from the Escrow Account pursuant to
Paragraphs 2 and 5 of the Settlement Agreement, the Settlement Class and
Subclasses, and each of them, for themselves and their respective heirs, agents,
officers, directors, shareholders, employees, consultants, joint venturers, partners,
members, legal representatives, successors and assigns, fully and forever release
and discharge TEP from any and all Released Claims, except for the rights and
obligations created by this Settlement Agreement.
9.

No Release of Non-Parties. Nothing herein shall operate or be construed to release any
claims the Parties may have against any person or entity who is not a party hereto.

10.

This action and any and all claims, actions or causes of action alleged by Plaintiffs,
individually and on behalf of the Settlement Class members against TEP, and any and
all counterclaims, actions or causes of action alleged by TEP against the Settlement
Class members, are dismissed with prejudice.
8

App. 64

Case 1:17-cv-01990-MEH Document 131 Filed 03/15/19 USDC Colorado Page 9 of 11

11.

Neither this Order Approving Final Settlement, the Settlement Agreement, nor any
document referred to herein nor any action taken pursuant to -- or to carry out -- the
Settlement Agreement may be used as an admission by or against TEP of any fact,
claim, assertion, matter, contention, fault, culpability, obligation, wrongdoing or
liability whatsoever. The Settlement Agreement and its exhibits may be filed in any
subsequent action against or by Settlement Class members or TEP to support a defense
of res judicata, collateral estoppel, release, or other theory of claim preclusion, issue
preclusion or similar defense.

12.

Allocation of the Settlement Amount shall proceed as stated in the Settlement
Agreement. Specifically, payments shall be made pursuant to the Final Distribution
Schedule, which represents the Settlement Class members’ proportionate share of the
Settlement Amount defined in Paragraph 2 of the Settlement Agreement, less the
amounts awarded for attorneys’ fees and expenses, as well as incentive award
payments, made by separate order. The Court approves the Final Distribution Schedule
and the manner in which the Final Distribution Schedule was prepared. Class Counsel
shall distribute payments to the Class members consistent with the Final Distribution
Schedule, as provided in Paragraph 5 of the Settlement Agreement.

13.

The Court has, by separate order, granted Class Counsel's Motion for an Award of
Attorneys’ Fees, Expenses, and an Incentive Award Payment to Class Representatives
(ECF No. 93). The amount of attorneys’ fees and expenses awarded to Class Counsel
shall be distributed to Class Counsel from the Escrow Account pursuant to the terms
of the Escrow Agreement. If this Order Approving Final Settlement is reversed on
appeal, Class Counsel shall be jointly obligated to refund to TEP the amount of

9

App. 65

Case 1:17-cv-01990-MEH Document 131 Filed 03/15/19 USDC Colorado Page 10 of 11

attorneys’ fees and expenses paid, with statutory interest, within 15 days of the date of
such reversal. If the amount of attorneys' fees or expenses is reduced on appeal, Class
Counsel and their law firms shall be jointly obligated to refund to the Escrow Account
the difference between the amount paid to them pursuant to this Paragraph 12 and the
amount ultimately awarded, with statutory interest, within 30 days of the date of the
order or decision reducing the amount of fees or expenses awarded. TEP shall have no
liability to the Settlement Class and Subclasses, the Settlement Class members, or Class
Counsel to pay any funds in addition to the Settlement Funds paid.
14.

The Court reserves jurisdiction over this matter, the Parties, and all counsel herein,
without affecting the finality of this Order Approving Final Settlement, including over
(a) implementing, administering and enforcing this Settlement and any award or
distribution from the Settlement Funds; (b) disposition of the Settlement Funds; and (c)
other matters related or ancillary to the foregoing.

15.

Nothing set forth in this Order Approving Final Settlement shall be construed to modify
or limit the terms of the Agreement, but rather, the Agreement and this Order
Approving Final Settlement are to be construed together as one Settlement between the
Parties.

16.

The Settlement and this Order Approving Final Settlement shall have no res judicata,
collateral estoppel, or other preclusive effect as to any claims other than the Released
Claims.

SO ORDERED.

10

App. 66

Case 1:17-cv-01990-MEH Document 131 Filed 03/15/19 USDC Colorado Page 11 of 11

DATED this 15th day of March, 2019, in Denver, Colorado.
BY THE COURT:

Michael E. Hegarty
United States Magistrate Judge

11

App. 67

Case 1:17-cv-01990-MEH Document 132 Filed 03/15/19 USDC Colorado Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
United States Magistrate Judge Michael E. Hegarty
Civil Action No. 17-cv-01990-MEH
ELNA SEFCOVIC, LLC,
WHITE RIVER ROYALTIES, LLC,
JUHAN, LP, and
ROY ROYALTY, INC., individually and on behalf of all others individually situated,
Plaintiffs,
v.
TEP ROCKY MOUNTAIN LLC,
Defendant.
_____________________________________________________________________________
ORDER ON PENDING MOTIONS
______________________________________________________________________________
In light of the Order Approving Final Settlement, the Renewed Motion to Intervene [filed
February 4, 2019; ECF No. 118] is denied as moot.
In addition, the Court finds that, pursuant to 28 U.S.C. § 636(c), the “Objection to the
Magistrate’s ‘Order’ Striking Election of Non-Consent and Objections to the Magistrate’s ‘Order’
Reversing Order Dismissing Case” filed by the putative intervenors [ECF No. 119] is improperly
filed in this case and, thus, is stricken. On August 13, 2018, the Plaintiffs and Defendant filed a
“Joint Notice of Unanimous Consent to the Jurisdiction of Magistrate Judge, and Joint Motion for
Entry of an Order of Reference under 28 U.S.C. § 636(c)(1)” (ECF No. 57) and Chief Judge Marcia
S. Krieger issued the Order of Reference the same day (ECF No. 58). Since that time, the case has
proceeded pursuant to 28 U.S.C. § 636(c). This Court’s order striking the putative intervenors’
Magistrate Judge Consent Election form (ECF No. 117) was proper, given that the putative
1

App. 68

Case 1:17-cv-01990-MEH Document 132 Filed 03/15/19 USDC Colorado Page 2 of 2

intervenors were not “parties” in this case, eligible to elect whether to consent to the jurisdiction
of a magistrate judge. See 28 U.S.C. § 636(c)(1) (“Upon the consent of the parties, a full-time
United States Magistrate Judge … may conduct any or all proceedings in a jury or nonjury civil
matter and order the entry of judgment in the case ….”) (emphasis added). To the extent that a
party has any “objection” to an order of a Magistrate Judge serving under § 636(c), the party may
“appeal directly to the appropriate United States court of appeals from the judgment of the
magistrate judge in the same manner as an appeal from any other judgment of a district court.” 28
U.S.C. § 636(c)(3).
Accordingly, the putative intervenors’ “[Motion] for Hearing on their Objection to the
Magistrate’s ‘Order’ Striking Election of Non-Consent, and Objections to the Magistrate’s ‘Order’
Reversing Order Dismissing Case [filed February 7, 2019; ECF No. 120] and the Joint Motion to
Strike Improper Objection to Court’s Orders [filed February 7, 2019; ECF No. 121] are denied as
moot.
SO ORDERED.
DATED this 15th day of March, 2019, in Denver, Colorado.
BY THE COURT:

Michael E. Hegarty
United States Magistrate Judge

2

App. 69

Appellate Case: 19-1121

Document: 010110348386

Date Filed: 05/15/2020

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________________________________
ELNA SEFCOVIC, LLC, et al.,

Page: 1

FILED
United States Court of Appeals
Tenth Circuit

May 15, 2020
Christopher M. Wolpert
Clerk of Court

Plaintiffs - Appellees,
v.

No. 19-1121
(D.C. No. 1:17-CV-01990-MEH)
(D. Colo.)

TEP ROCKY MOUNTAIN, LLC,
Defendant - Appellee.
-----------------------------CHARLES DEAN GONZALES, et al.,
Objectors,
IVO LINDAUER, et al.,
Intervenors - Appellants,
and
THE LAW OFFICES OF GEORGE A.
BARTON, PC,

Movant - Appellee.
_________________________________
ORDER
_________________________________
Before PHILLIPS, McHUGH, and MORITZ, Circuit Judges.
_________________________________
Appellants’ petition for rehearing is denied.

App. 70

Appellate Case: 19-1121

Document: 010110348386

Date Filed: 05/15/2020

Page: 2

The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular
active service on the court requested that the court be polled, that petition is also denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

2

App. 71

Appellate Case: 19-1121

Document: 010110321504

Date Filed: 03/18/2020

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________________________________
ELNA SEFCOVIC, LLC; WHITE RIVER
ROYALTIES, LLC; JUHAN, LP; ROY
ROYALTY, INC., individually and on
behalf of all others similarly situated,

Page: 1

FILED
United States Court of Appeals
Tenth Circuit

March 18, 2020
Christopher M. Wolpert
Clerk of Court

Plaintiffs - Appellees,
v.
No. 19-1121
(D.C. No. 1:17-CV-01990-MEH)
(D. Colo.)

TEP ROCKY MOUNTAIN, LLC,
Defendant - Appellee.
-----------------------------CHARLES DEAN GONZALES;
SUSANNAH GONZALES; TED L.
VAUGHAN; HILDA M. VAUGHAN,
Objectors,
IVO LINDAUER; SIDNEY LINDAUER;
RUTH LINDAUER; DIAMOND
MINERALS,
Intervenors - Appellants,
and
THE LAW OFFICES OF GEORGE A.
BARTON, PC,

Movant - Appellee.
_________________________________
JUDGMENT
_________________________________

App. 72

Appellate Case: 19-1121

Document: 010110321504

Date Filed: 03/18/2020

Page: 2

Before PHILLIPS, McHUGH, and MORITZ, Circuit Judges.
_________________________________
This case originated in the District of Colorado and was argued by counsel.
The judgment of that court is affirmed.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

2

App. 73

DATE FILED: October 17, 2008
CASE NUMBER: 2006CV317

App. 74

App. 75

App. 76

App. 77

App. 78

App. 79

App. 80

App. 81

App. 82

App. 83

App. 84

App. 85

App. 86

App. 87

App. 88

App. 89

App. 90

App. 91

App. 92

App. 93

App. 94

App. 95

App. 96

App. 97

App. 98

App. 99

App. 100

App. 101

App. 102

App. 103

App. 104

App. 105

EFILED Document

DATECO
FILED:
March
20,
2009 Court
5:45 PM
Garfield
County
District
9th JD
CASEFiling
NUMBER:
2006CV317
Date: Mar 20 2009 3:45PM MDT
Filing ID: 24319012
Review Clerk: N/A

App. 106

App. 107

App. 108

App. 109

App. 110

App. 111

App. 112

App. 113

App. 114

